No. 20-____
IN THE

Supreme Court of the United States
————
M&T BANK CORPORATION, et al.,
v.

Petitioners,

DAVID JAROSLAWICZ, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
WILLIAM SAVITT
TRACY RICHELLE HIGH
SULLIVAN & CROMWELL LLP
Counsel of Record
BRADLEY R. WILSON
125 Broad Street
ADAM L. GOODMAN
New York, NY 10004
WACHTELL, LIPTON,
KEVIN R. SHANNON
ROSEN & KATZ
POTTER ANDERSON
51 West 52nd Street
& CORROON LLP
New York, NY 10019
1313 North Market Street
(212) 403-1000
Wilmington, DE 19801
WDSavitt@wlrk.com
BRIAN M. ROSTOCKI
REED SMITH
1201 Market Street
Wilmington, DE 19801
Counsel for Petitioners

QUESTIONS PRESENTED
(1) Whether Item 105 of Regulation S-K, which
obligates public companies to discuss material risk
factors in registration statements, periodic SEC filings,
and stock-based merger proxies, requires a company
with knowledge of a general risk factor to ascertain
and disclose facts that may bear on that general risk
factor that are not otherwise within the company’s
actual knowledge.
(2) Whether Item 105 of Regulation S-K requires
companies to identify and discuss potentially unlawful
business practices or inadequate compliance
procedures in circumstances where neither the
company nor any regulator has identified an issue or
concern and the company believes that such practices
or procedures are compliant with applicable law.

(i)

ii
PARTIES TO THE PROCEEDING
Petitioners, who are the defendants in this action
and who were appellees in the United States Court
of Appeals for the Third Circuit, are M&T Bank
Corporation; Hudson City Bancorp, Inc.; the Estate of
Robert G. Wilmers, by its personal representatives
Elisabeth Roche Wilmers, Peter Milliken, and Holly
McAllister Swett; René F. Jones; Mark J. Czarnecki;
Brent D. Baird; C. Angela Bontempo; Robert T. Brady;
T. Jefferson Cunningham, III; Gary N. Geisel; John D.
Hawke, Jr.; Patrick W.E. Hodgson; Richard G. King;
Jorge G. Pereira; Melinda R. Rich; Robert E. Sadler,
Jr.; Herbert L. Washington; Denis J. Salamone;
Michael W. Azzara; Victoria H. Bruni; Donald O. Quest;
Joseph G. Sponholz; Cornelius E. Golding; William G.
Bardel; and Scott A. Belair.
Respondents, who are the plaintiffs in this action
and who were appellants in the Third Circuit, are the
Belina Family (comprising Richard Belina and Chrisanne
Belina) and Jeff Krublit.
David Jaroslawicz filed the initial complaint, and
the district court appointed the Belina Family as lead
plaintiffs. Lead plaintiffs and additional plaintiff Jeff
Krublit filed the Second Amended Class Action Complaint
at issue on this petition.

iii
RULE 29.6 DISCLOSURE STATEMENT
M&T Bank Corporation states that it does not have
a parent corporation and that no publicly held
corporation owns 10 percent or more of its stock.
Hudson City Bancorp, Inc. no longer exists. It was
merged into non-party Wilmington Trust Corp., a
wholly owned subsidiary of M&T Bank Corporation, in
the transaction that underlies this case.
RELATED PROCEEDINGS
United States District Court (D. Del.):
Jaroslawicz v. M&T Bank Corporation et al.,
Civ. No. 15-897 (Nov. 21, 2017)
United States Court of Appeals (3d Cir.):
Jaroslawicz v. M&T Bank Corporation et al.,
No. 17-3695 (June 18, 2020)

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDING ....................

ii

RULE 29.6 DISCLOSURE STATEMENT .........

iii

RELATED PROCEEDINGS ...............................

iii

TABLE OF AUTHORITIES ................................

vi

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

REGULATORY PROVISIONS INVOLVED ......

2

STATEMENT ......................................................

3

A. Background .................................................

5

B. Facts and Procedural History ....................

6

REASONS FOR GRANTING THE PETITION....

12

I. The decision below conflicts with
the decisions of two other circuits ............

12

II. The decision below is incorrect .................

17

III. The questions presented are
exceptionally important ............................

21

CONCLUSION ....................................................

25

APPENDIX
APPENDIX A: Opinion, United States Court
of Appeals for the Third Circuit, Jaroslawicz
v. M&T Bank Corporation, 962 F.3d 701
(3d Cir. 2020)....................................................

1a

v
TABLE OF CONTENTS—Continued
Page
APPENDIX B: Memorandum Opinion, United
States District Court for the District of
Delaware, Jaroslawicz v. M&T Bank
Corporation, 296 F. Supp. 3d 670
(D. Del. 2017) ...................................................

34a

APPENDIX C: Order, United States Court
of Appeals for the Third Circuit, Jaroslawicz
v. M&T Bank Corporation, No. 17-3695
(June 12, 2018) .................................................

53a

APPENDIX D: Letter
from
David
R.
Fredrickson,
Chief
Counsel/Associate
Director, Division of Corporation Finance,
SEC (July 12, 2018) .........................................

56a

vi
TABLE OF AUTHORITIES
Cases

Page(s)

Amgen Inc. v. Conn. Ret. Plans & Tr. Funds,
568 U.S. 455 (2013) ......................................

24

Broudo v. Dura Pharms., Inc.,
339 F.3d 933 (9th Cir. 2003) ........................

24

Cal. Pub. Emps.’ Ret. Sys. v. ANZ Sec., Inc.,
137 S. Ct. 2042 (2017) ..................................

19

Chadbourne & Parke LLP v. Troice,
571 U.S. 377 (2014) ...................................... 18, 24
City of Pontiac Policemen’s and
Firemen’s Ret. Sys. v. UBS AG,
752 F.3d 173 (2d Cir. 2014) ........................ passim
Cyan, Inc. v. Beaver Cnty. Emps. Ret. Fund,
138 S. Ct. 1061 (2018) ..................................

24

Dura Pharms., Inc. v. Broudo,
544 U.S. 336 (2005) ......................................

18

Emulex Corp. v. Varjabedian,
139 S. Ct. 782 (2019) (Mem.)........................

24

Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ......................................

24

Indiana Pub. Ret. Sys. v. SAIC, Inc.,
818 F.3d 85 (2d Cir. 2016) ............................

24

Leidos, Inc. v. Ind. Pub. Ret. Sys.,
137 S. Ct. 1395 (2017) (Mem.)......................

24

Long Island Care at Home, Ltd. v. Coke,
551 U.S. 158 (2007) ......................................

20

Matrixx Initiatives, Inc. v. Siracusano,
563 U.S. 27 (2011) ........................................

24

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Omnicare, Inc. v. Laborers Dist. Council
Constr. Indus. Pension Fund,
575 U.S. 175 (2015) ................................ 19, 20, 24
Silverstrand Invs. v. AMAG Pharms., Inc.,
707 F.3d 95 (1st Cir. 2013) ......................... passim
Siracusano v. Matrixx Initiatives, Inc.,
585 F.3d 1167 (9th Cir. 2009) ......................

24

Stoneridge Inv. Partners v. ScientificAtlanta, Inc.,
552 U.S. 148 (2008) ......................................

22

Tellabs, Inc. v. Makor Issues & Rts., Ltd.,
551 U.S. 308 (2007) ......................................

22

Varjabedian v. Emulex Corp.,
888 F.3d 399 (9th Cir. 2018) ........................

24

Statutes and Regulations
28 U.S.C. § 1254(1) ..........................................

1

Securities Act of 1933 .................................... passim
§ 11, 15 U.S.C. § 77k .................................. passim
§ 12(a)(2), 15 U.S.C. § 77l(a)(2) ....................

15

§ 22(a), 15 U.S.C. § 77v(a) ............................

22

Securities Exchange Act of 1934 ................... passim
§ 10(b), 15 U.S.C. § 78j(b) .............................

18

§ 14(a), 15 U.S.C. § 78n(a).......................... passim
§ 20(a), 15 U.S.C. § 78t(a) ............................

8

§ 27(a), 15 U.S.C. § 78aa(a) ..........................

22

viii
TABLE OF AUTHORITIES—Continued
Page(s)
17 C.F.R. § 229 .................................................

5

17 C.F.R. § 229.103 ..........................................

20

17 C.F.R. § 229.105 ........................................ passim
17 C.F.R. § 240.14a–9 ......................................

4, 8

Other Authorities
Cornerstone Research, Securities Class
Action Filings—2019 Year in Review
(2020), https://bit.ly/35x8h7W ......................

23

Del. Div. of Corps., Annual Report Statistics,
https://corp.delaware.gov/stats/ ...................

23

Div. of Corp. Fin., CF Disclosure Guidance:
Topic
No.
2,
Cybersecurity,
SEC
(Oct. 13, 2011), https://bit.ly/2Rij39Q ..........

17

Donald C. Langevoort, Disasters and Disclosures: Securities Fraud Liability in the
Shadow of a Corporate Catastrophe,
107 Geo. L.J. 967 (2019) ...............................

19

Modernization of Regulation S-K Items 101,
103, and 105, 85 Fed. Reg. 63726
(Oct. 8, 2020)................................................. 17, 18
SEC, Exchange Act Release No. 77599
(Apr. 13, 2016) ..............................................

5

PETITION FOR A WRIT OF CERTIORARI
Petitioners M&T Bank Corporation, Hudson City
Bancorp, Inc., the Estate of Robert G. Wilmers, by its
personal representatives Elisabeth Roche Wilmers,
Peter Milliken, and Holly McAllister Swett, René F.
Jones, Mark J. Czarnecki, Brent D. Baird, C. Angela
Bontempo, Robert T. Brady, T. Jefferson Cunningham,
III, Gary N. Geisel, John D. Hawke, Jr., Patrick W.E.
Hodgson, Richard G. King, Jorge G. Pereira, Melinda
R. Rich, Robert E. Sadler, Jr., Herbert L. Washington,
Denis J. Salamone, Michael W. Azzara, Victoria H.
Bruni, Donald O. Quest, Joseph G. Sponholz, Cornelius
E. Golding, William G. Bardel, and Scott A. Belair
respectfully petition this Court for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Third Circuit.
OPINIONS BELOW
The Third Circuit’s opinion upon panel rehearing
below (App. 1a–33a) is reported at 962 F.3d 701. An
earlier opinion by the Third Circuit was vacated by the
panel and was previously reported at 912 F.3d 96. The
district court’s opinion granting defendants’ motion to
dismiss (App. 34a–52a) is reported at 296 F. Supp. 3d
670. An earlier opinion by the district court granting
defendants’ prior motion to dismiss is unpublished but
reported at 2017 WL 1197716.
JURISDICTION
The Third Circuit issued its decision on June 18,
2020. On March 19, 2020, by general order, the Court
extended the time to file this petition to 150 days from
the date of the lower court judgment. This Court has
jurisdiction under 28 U.S.C. § 1254(1).

(1)

2
REGULATORY PROVISIONS INVOLVED
Item 105 of Regulation S-K provides:
(a) Where appropriate, provide under the caption
“Risk Factors” a discussion of the material factors that
make an investment in the registrant or offering speculative or risky. This discussion must be organized
logically with relevant headings and each risk factor
should be set forth under a subcaption that adequately
describes the risk. The presentation of risks that could
apply generically to any registrant or any offering is
discouraged, but to the extent generic risk factors are
presented, disclose them at the end of the risk factor
section under the caption “General Risk Factors.”
(b) Concisely explain how each risk affects the
registrant or the securities being offered. If the discussion is longer than 15 pages, include in the forepart of
the prospectus or annual report, as applicable, a series
of concise, bulleted or numbered statements that is
no more than two pages summarizing the principal
factors that make an investment in the registrant or
offering speculative or risky. If the risk factor discussion is included in a registration statement, it must
immediately follow the summary section required by
§ 229.503 (Item 503 of Regulation S-K). If you do not
include a summary section, the risk factor section
must immediately follow the cover page of the prospectus or the pricing information section that immediately
follows the cover page. Pricing information means
price and price-related information that you may omit
from the prospectus in an effective registration statement based on Rule 430A (§ 230.430A of this chapter).
The registrant must furnish this information in plain
English. See § 230.421(d) of Regulation C of this chapter.

3
STATEMENT
This petition concerns the scope of Item 105 of
Regulation S-K, which governs the disclosure of material factors that make an investment in the registrant
or offering speculative or risky. The Third Circuit held
that Item 105 requires issuers to (i) disclose facts
they did not know at the time of disclosure and
that were only later brought to their attention and
(ii) acknowledge misconduct they do not believe themselves to have committed and which no regulator has
accused them of committing. This holding splits with
the First Circuit, which requires an issuer to disclose
risk factors under Item 105 only if the issuer had
actual knowledge of those risks, and with the Second
Circuit, which does not require an issuer to preemptively confess to misconduct that has not resulted in
any regulatory or other sanction.
The Third Circuit’s decision, if allowed to stand, will
significantly reduce the pleading and evidentiary standards plaintiffs must meet in bringing claims under the
federal securities laws and will expose thousands of
public companies participating in the U.S. securities
markets to significant, hindsight-based liability.
This case arises from M&T’s acquisition of Hudson
City via a cash-and-stock merger. Though Hudson City’s
shareholders overwhelmingly approved the merger in
April 2013, and would ultimately realize a total profit
of nearly $2 billion, the Federal Reserve withheld
approval of the transaction until September 2015 in
light of its concerns regarding M&T’s Bank Secrecy
Act and anti-money laundering (“BSA/AML”) compliance program. In addition, in October 2014, M&T
entered into a $2 million settlement with the Consumer
Financial Protection Bureau to resolve allegations
regarding certain consumer checking practices, without

4
admitting to any wrongdoing. When the Federal
Reserve subsequently approved the M&T/Hudson City
merger, it cited this CFPB settlement as relevant to
its assessment of M&T’s compliance program.
Although all these events occurred after the parties
had filed their joint proxy soliciting shareholder
approval for the merger, plaintiffs brought a putative
class action alleging that petitioners had violated
§ 14(a) of the Securities Exchange Act of 1934 and
SEC Rule 14a-9 by soliciting such approval by means
of a materially deficient proxy statement. As pertinent
here, plaintiffs alleged that petitioners had fallen
short of their disclosure obligations under Item 105
by failing to disclose M&T’s allegedly noncompliant
business practices and regulatory procedures in the
joint proxy. In the decision below, the Third Circuit
found that plaintiffs’ Item 105 theory was viable,
because “whether M&T had actual knowledge of the
shortcomings in its BSA/AML compliance or its
consumer checking practices [was] of no moment.”
In so holding, the Third Circuit split sharply
with both the First Circuit and Second Circuit. In the
First Circuit, Item 105 requires disclosure of facts
actually known to the filer at the time of disclosure.
See Silverstrand Invs. v. AMAG Pharms., Inc., 707
F.3d 95, 103 (1st Cir. 2013). And in the Second Circuit,
issuers need not disclose “uncharged, unadjudicated
wrongdoing” under Item 105, even if an investigation
is underway, because “[d]isclosure is not a rite of
confession.” City of Pontiac Policemen’s and Firemen’s
Ret. Sys. v. UBS AG, 752 F.3d 173, 184 (2d Cir. 2014)
(internal quotation marks omitted). The decision below
cannot be reconciled with these precedents, and petitioners would have prevailed under the law of either
the First or the Second Circuit.

5
The Third Circuit expressed “caveats, cautions, and
qualms” about its conclusion, and with good reason.
Because the decision below threatens to expand exponentially the number of cognizable federal securities
law claims, including based on the judicially created
private right of action under § 14(a) of the Exchange
Act, the questions presented are exceptionally important
for each and every public company in the United
States and warrant this Court’s immediate review. And
because of the federal securities laws’ broad venue
provisions and Delaware’s status as the domicile of
choice for U.S. public companies, the Third Circuit’s
expansive interpretation of Item 105 threatens to
become the de facto national standard, frustrating
further percolation. The Court should intervene now
to resolve the conflict of authority and forestall the
proliferation of hindsight-based securities claims alleging
failures to detect and disclose unknown material risks.
The petition should be granted.
A. Background
Part 229 of Title 17 of the Code of Federal
Regulations, more commonly known as Regulation
S-K, delineates the SEC’s disclosure requirements
with respect to the nonfinancial statement portions
of the various forms required to be filed under the
Securities Act of 1933 and the Securities Exchange Act
of 1934. Adopted in 1977, Regulation S-K reflects the
SEC’s “efforts to harmonize disclosure required under
both the Securities Act and the Exchange Act by creating a single repository for disclosure regulation that
applies to filings by registrants under both statutes.”
Exchange Act Release No. 77599 at 10 (Apr. 13, 2016).
Regulation S-K thus permeates the disclosure regime
governing the U.S. securities markets, extending to
registration statements under the Securities Act, which

6
accompany any public stock offering, and proxy statements and periodic reports under the Exchange Act.
This case concerns a prominent disclosure requirement in Regulation S-K: Item 105. Where it applies (and
it often does), Item 105 imposes an affirmative obligation on companies to discuss the “material factors that
make an investment in the registrant or offering speculative or risky.” 17 C.F.R. § 229.105(a). Companies filing
periodic reports under the Exchange Act must comply
with Item 105 in their annual reports (i.e., 10-Ks) and,
to the extent there have been material changes, in
their quarterly reports (i.e., 10-Qs). Companies making
public securities offerings must comply with Item 105
in their registration statements. And, as in the case
here, companies soliciting approval from shareholders
for stock-based mergers via Form S-4 must comply
with Item 105 in their proxy statements seeking such
approval.
B. Facts and Procedural History
1. In 2012, M&T agreed to acquire Hudson City.
App. 36a. The deal required the approval of both
companies’ shareholders, and so Hudson City and
M&T filed a joint proxy statement with the SEC
(the “Joint Proxy”). App. 5a. Pursuant to Item 503 of
Regulation S-K, since amended and recodified as Item
105, the Joint Proxy discussed the most significant
risk factors confronting the merger and M&T.1 App. 6a.
1

The amendments to former Item 503 are not relevant to the
analysis of either of the questions presented by this petition.
Accordingly, the caselaw analyzing former Item 503 continues to
govern the interpretation of Item 105. For the sake of consistency
with the opinion below and to reflect the regulation’s current
placement within Regulation S-K, petitioners refer to Item 105
throughout this petition.

7
Included in this “Risk Factors” discussion was a section
on the “Regulatory Approvals Required for the Merger,”
which emphasized the risk that regulators could withhold or substantially delay approval of the transaction.
Defs.’ C.A. Br. 8 (3d Cir. Apr. 2, 2018). The merger
parties explained that securing such approval would
depend in part upon the Federal Reserve’s evaluation
of “the effectiveness of the companies in combatting
money laundering,” as well as, more generally, its assessment of any “unsound banking practices.” Id. M&T also
explained that it believed its BSA/AML policies and procedures were compliant with applicable law. App. 8a.
About a week before the Hudson City shareholder
vote, M&T and Hudson City disclosed that regulatory
approval for the merger would be delayed because of
concerns that the Federal Reserve had recently expressed
about M&T’s BSA/AML compliance program. Hudson
City’s shareholders were undeterred by this development and subsequently voted overwhelmingly to approve
the merger. App. 8a–10a.
Over the next two years, M&T worked to address the
Federal Reserve’s concerns. While it was doing so, the
CFPB announced an enforcement action against M&T
concerning allegations that the bank had unlawfully
offered some customers free checking accounts before
switching them to fee-based accounts. M&T resolved
these allegations with the CFPB by agreeing to refund
about $2 million to customers. App. 10a. The resulting
settlement agreement contained no admission or judicial
finding of any wrongdoing or noncompliance on the
part of M&T. See Defs.’ C.A. Br. 12 (3d Cir. Apr. 2, 2018).
Ultimately, the Federal Reserve issued an order
approving the merger on September 30, 2015, and the
merger closed on November 1, 2015. See id. at 13–14.

8
2. A few weeks before the merger closed, David
Jaroslawicz filed a complaint on behalf of a putative
class of Hudson City shareholders, asserting claims
under § 14(a) and § 20(a) of the Exchange Act and
under SEC Rule 14a-9, along with a claim for breach
of fiduciary duty under Delaware law. App. 10a. After
the appointment of the Belina Family as lead plaintiffs, plaintiffs filed an amended complaint reasserting
the same claims, and defendants moved to dismiss for
failure to state a claim. The district court granted the
motion, but with leave to amend. App. 11a.
In their second amended complaint, plaintiffs pleaded
only a § 14(a) claim, proffering two theories of liability.
First, plaintiffs contended that because the Joint Proxy
did not discuss M&T’s allegedly “non-compliant BSA/
AML practices and deficient consumer checking program,” M&T had failed to comply with Item 105. Id.
Plaintiffs did not contend that M&T had knowledge of
the allegedly noncompliant BSA/AML practices. Quite
the opposite, plaintiffs’ theory sounded in negligence:
the parties “would have discovered” the deficiencies,
plaintiffs asserted, had only they “performed adequate
due diligence.” Second Am. Compl. ¶ 14 (D. Del. Apr.
20, 2017), ECF No. 72 (emphasis added). Second, plaintiffs contended that “M&T’s failure to discuss these
allegedly non-compliant practices” rendered M&T’s
opinion statements regarding its belief in its own compliance, among other statements, materially misleading.
App. 11a.
Defendants again moved to dismiss, and the district
court again granted their motion. The district court
held that, to the extent the Item 105 theory was
premised on the alleged failure to discuss deficiencies
in the BSA/AML program, M&T had sufficiently discussed the regulatory risks relating to the merger.

9
App. 44a–46a. And as for the consumer checking issues
that were addressed in the later CFPB settlement, the
district court found that plaintiffs had not plausibly
alleged that those issues posed a significant risk to
the merger’s approval “at the time the Proxy issued.”
App. 46a. The district court further held that plaintiffs
had failed to plead any actionable opinion statements.
App. 46a–50a.
The district court granted plaintiffs leave to amend,
but plaintiffs elected to stand on their second amended
complaint and appealed its dismissal. App. 11a.
3. After the completion of briefing in the Third Circuit
but before oral argument, the Third Circuit invited the
SEC to file an amicus brief addressing, among other
things, whether Item 105 is satisfied where a proxy
filer “neglects to disclose that one of the parties to the
proposed merger has serious regulatory violations that
could derail or significantly delay a merger.” App. 54a.
The SEC subsequently submitted a letter explaining that it was unable to file an amicus brief by the
Third Circuit’s deadline. The signatory to the letter,
the Chief Counsel of the SEC’s Division of Corporation
Finance, thus “express[ed] no views on the particular
legal questions raised in the matter before the Court”
and instead “offered background information” on Item
105 on his own behalf. App. 56a.
4. On December 26, 2018, the Third Circuit issued
an opinion vacating the district court’s dismissal of
plaintiffs’ § 14(a) claim to the extent it was premised
on plaintiffs’ Item 105 theory and affirming the dismissal of the claim to the extent it was based on
allegedly misleading opinion statements. Defendants
petitioned for panel rehearing or rehearing en banc.

10
i. On February 28, 2019, the en banc court ordered
that the petition for rehearing en banc be held in
abeyance pending a decision by this Court in Emulex
Corp. v. Varjabedian, No. 18-459. After this Court
dismissed Emulex as improvidently granted, the panel
granted defendants’ petition for panel rehearing, vacated
its December 26, 2018 opinion, reconstituted itself in
light of the retirement of the Honorable Thomas I.
Vanaskie, and called for supplemental briefing.
ii. On June 18, 2020, the Third Circuit issued an
opinion that, like the opinion it had earlier withdrawn,
vacated the district court’s dismissal of the § 14(a)
claim to the extent it was premised on a violation of
Item 105 and affirmed the dismissal of the claim to the
extent it was premised on misleading opinion statements.
With respect to Item 105, the Third Circuit held that
the “Second Amended Complaint plausibly allege[d]
that the BSA/AML deficiencies and consumer checking
practices posed significant risks to the merger before
M&T issued the Joint Proxy” and that “the weaknesses present in M&T’s BSA/AML and consumer
compliance programs” would have been material.
App. 29a. Because the Joint Proxy omitted discussion
of these “deficiencies” and “weaknesses,” plaintiffs had
“met their pleading burden.” Id.
The court acknowledged that the First Circuit’s
decision in Silverstrand stood for the sound proposition that pleading a viable Item 105 claim “requires an
allegation that a known risk factor existed at the time
of the offering.” App. 22a. The knowledge requirement
was met here, said the panel, because “M&T knew that
the state of its compliance program would be subject
to extensive review from federal regulators,” App. 23a,
and “knew the failure to obtain regulatory approval
would be significant, possibly fatal, to the merger,”

11
App. 28a. In light of M&T’s knowledge of this looming
regulatory inspection and its potential consequences,
M&T had to disclose “the failure of [its] internal compliance program,” App. 28a n.15, and its “BSA/AML
deficiencies,” App. 29a. It did not matter that plaintiffs
had not alleged—indeed, had disclaimed—that defendants knew of these deficiencies when they issued the
Joint Proxy: “whether M&T had actual knowledge
of the shortcomings in its BSA/AML compliance or
its consumer checking practices [was] of no moment.”
App. 29a. Nor did it matter that plaintiffs made “no
allegation that M&T offered an insincere opinion”
when it told investors that it believed its BSA/AML
policies and procedures complied with applicable law.
App. 31a. Rather, “it [was] the risk to the merger
posed by the regulatory inspection itself that triggered
the need for disclosur[e]” of the omitted information
under Item 105. App. 29a.
The court likewise held that plaintiffs had plausibly
alleged that M&T was required to disclose the alleged
consumer checking problems identified by the CFPB
in its enforcement action announced more than a year
and a half later. Again, “whether M&T had actual
knowledge of . . . its consumer checking practices [was]
of no moment.” Id. According to the panel, Item 105
imposed an obligation on M&T to disclose the alleged
deficiencies regardless, because “regulatory review of
a bank’s consumer checking practices as part of a
merger would not be unexpected” and posed a “risk to
the merger.” Id.

12
REASONS FOR GRANTING THE PETITION
This petition satisfies all the conventional requirements for certiorari. The Third Circuit’s treatment of
Item 105 squarely conflicts with that of the First
Circuit and Second Circuit. The decision below was
wrong. And the petition presents two questions of
exceptional importance to the thousands of public companies that must regularly comply with Item 105—
questions that are unlikely to benefit from further
percolation given the federal securities laws’ broad
venue provisions in conjunction with the Third Circuit’s
status as the home (via Delaware) to a large majority
of American public companies. The questions presented
thus warrant this Court’s prompt review, and the
petition should be granted.
I. The decision below conflicts with the
decisions of two other circuits.
The Third Circuit’s decision in this case establishes
a clear split of authority in the federal circuit courts
regarding the scope of Item 105 in two significant
respects.
A. In holding that Item 105 requires disclosure of
facts regardless of whether they are actually known to
the reporting company at the time of disclosure, the
Third Circuit created a conflict with the First Circuit’s
contrary decision in Silverstrand.
In Silverstrand, the plaintiff shareholders alleged
that the defendant pharmaceutical company, AMAG
Pharmaceuticals, Inc., had failed to disclose in connection with a secondary stock offering that use of its new
drug had resulted in 23 so-called “Serious Adverse
Events” (“SAEs”), even though it knew about these
reactions and had reported them to the FDA. 707 F.3d

13
at 98–104. When information about these SAEs
came to light post-offering, AMAG’s stock tanked, and
shareholders brought a putative class action under
§ 11 of the Securities Act, premised in part on Item
105. See id. at 99–101. The plaintiffs had stated an
Item 105 claim, the First Circuit held, because the
defendant “failed to disclose the 23 SAEs, even though
it knew about them.” Id. at 106 (emphasis added).
2

In the decision below, the Third Circuit purported to
adopt a knowledge requirement, but it split from the
First Circuit on the critical and outcome-determinative
question of whether defendants must have actual knowledge of the facts that they are alleged to have omitted.
In this case, unlike in Silverstrand, plaintiffs did not
allege that defendants had knowledge of the BSA/
AML deficiencies at issue. To the contrary, plaintiffs’
theory is that M&T “failed to detect” its own alleged
noncompliance, Second Am. Compl. ¶ 76 (emphasis
added), and “would have discovered” these deficiencies
had it “performed adequate due diligence,” id. ¶ 14.
The Third Circuit, in turn, drew no pleading-stage
inference regarding defendants’ knowledge of either the
alleged BSA/AML deficiencies or consumer checking
deficiencies in concluding that plaintiffs had adequately
pleaded that M&T was required to disclose them. Quite
the opposite, the Third Circuit held that “whether
M&T had actual knowledge of the shortcomings in its
BSA/AML compliance or its consumer checking practices
[was] of no moment.” App. 29a (emphasis added). That

2

As the First Circuit explained, an SAE is a regulatory term
of art that refers to, among other things, death, inpatient
hospitalization, or a congenital abnormality or birth defect. See
Silverstrand, 707 F.3d at 98 n.3.

14
was because it was the “risk to the merger posed by
the regulatory inspection itself that triggered the need
for [these] disclosures under Item 105.” Id. In other
words, because M&T knew that the merger would face
regulatory scrutiny, M&T needed to disclose any
“deficiencies” that potentially could jeopardize regulatory approval, even if it didn’t know about them.
In so holding, the Third Circuit fundamentally
diverged from the First Circuit’s decision in Silverstrand.
In the First Circuit, a reporting company must have
knowledge of the actual facts it is alleged to have omitted
to trigger a disclosure obligation under Item 105. See
Silverstrand, 707 F.3d at 106 (“Because the Complaint
alleged that [defendant] failed to disclose the 23 SAEs,
even though it knew about them, we cannot conclude
that it failed to state plausible § 11 claims for omissions
of . . . Item [105] risks.”). In the Third Circuit, no such
requirement exists. It is enough that the reporting
company have knowledge of some general risk, within
which some specific facts bearing on that risk might
lurk, undiscovered and unknown.
Though the Third Circuit attempted to reconcile
its decision with Silverstrand, it could do so only by
misreading the First Circuit’s holding as motivated by
something other than the defendant’s knowledge of
the 23 SAEs that it omitted from its risk disclosure.
“The registrant in Silverstrand allegedly knew that
the FDA would scrutinize the reported effects of its
product,” the Third Circuit noted. App. 22a. “So allegations of failing to disclose that factor was enough to
state a claim.” App. 22a–23a. But the First Circuit
did not hold that knowledge of imminent regulatory
scrutiny was enough to state a claim regardless of
whether the defendant knew about the SAEs. To the
contrary, the First Circuit held that the plaintiffs had

15
stated a claim precisely because the defendant “failed
to disclose the 23 SAEs, even though it knew about
them.” Silverstrand, 707 F.3d at 106.
Thus, this is not a case involving a shared or similar
legal standard that a court misapplied in a fact-bound
manner. Rather, the First and Third Circuits have
intractably split on the question of whether actual
knowledge is required under Item 105 to trigger a disclosure obligation. That the Third Circuit declined to
acknowledge the conflict it was creating does not render
the conflict any less real or its consequences any less
significant. Only this Court’s intervention can resolve
the split of authority.
B. The Third Circuit’s decision also squarely
conflicts with the Second Circuit’s decision in City of
Pontiac. In City of Pontiac, plaintiffs brought a
putative class action under §§ 11 and 12(a)(2) of the
Securities Act, alleging that UBS AG and certain of its
officers and directors had violated Item 105 by failing
to disclose that the bank was engaged in tax evasion.
City of Pontiac, 752 F.3d at 182. The bank’s offering
materials had “disclosed that the DOJ was investigating whether . . . UBS client advisors entered the
United States to help U.S. clients evade their tax
obligations, in violation of U.S. law.” Id. at 184. But
plaintiffs’ theory was that Item 105 required more—
that, “in addition to disclosing the existence of an
investigation, defendants were required to disclose
that UBS was, in fact, engaged in an ongoing tax
evasion scheme.” Id.
The Second Circuit rejected that argument, even
though UBS had since entered into a deferred prosecution agreement with the DOJ and IRS in which it
“revealed that [it] had violated United States tax laws,”
“admitted participation in a conspiracy to defraud the

16
IRS,” and “disclosed that [it] had paid a $780 million
fine.” Id. at 178. “[D]isclosure is not a rite of confession,” the Second Circuit emphasized, and Item 105 does
not create a “duty to disclose uncharged, unadjudicated
wrongdoing.” Id. at 184 (internal quotation marks
omitted). By disclosing the investigation and its potential consequences as a risk factor, UBS had met its
disclosure obligation under Item 105, even though
it had not disclosed its actual legal and regulatory
deficiencies. Id. at 183–84.
If the Third Circuit had applied the Second Circuit’s
standard to this case, it would have dismissed plaintiffs’ claim, which posits that Item 105 obligated
defendants to “reveal that M&T had failed” to comply
with applicable law and to disclose “the serious extent
of such non-compliance.” Second Am. Compl. ¶ 3.
Instead, the court held that the Joint Proxy’s failure to
disclose M&T’s “BSA/AML deficiencies and consumer
checking practices” was actionable. App. 29a; see also
App. 28a n.15 (indicating M&T should have disclosed
“the failure of [its] internal compliance program”).
The Third Circuit sought to distinguish City of
Pontiac as a case in which the relevant disclosure
was more specific than the one at issue here: “unlike
the defendants in City of Pontiac,” the Third Circuit
reasoned, “M&T offered little more than generic statements about the process of regulatory review.” App.
28a. But City of Pontiac did not rest on the specificity
with which UBS disclosed the investigation; it was
animated by the principle that the securities laws do
not call for the “confession” of wrongdoing. And in
any case, the distinction is an empty one because
the information the Third Circuit held should have
been disclosed is exactly the type of “uncharged,
unadjudicated wrongdoing” that the Second Circuit

17
held to be outside the ambit of Item 105. City of Pontiac,
752 F.3d at 184 (internal quotation marks omitted).
II. The decision below is incorrect.
The Third Circuit did not only create a split of
authority in holding that actual knowledge is not
required under Item 105 and that SEC reporting companies must disclose unadjudicated wrongdoing when
that regulation applies; it got it wrong.
A. With respect to the knowledge element of Item
105, the SEC has never suggested that Item 105
requires disclosure of facts unknown to the company.
To the contrary, the SEC has made clear that Item 105
is animated by a “principles-based approach” that is
intended to “facilitate an understanding of a registrant’s business, financial condition and prospects
through the lens through which management and the
board of directors manage and assess the performance
of the registrant.” Modernization of Regulation S-K
Items 101, 103, and 105, 85 Fed. Reg. 63726, 63727,
63744 (Oct. 8, 2020). Application of a materialitybased standard, as required by Item 105, the SEC
has explained, “involves a certain degree of judgment.”
Id. at 63752. And consistent with this emphasis on
the “lens” and “judgment” of management, the SEC’s
Division of Corporation Finance has issued guidance
that makes clear that Item 105’s scope is delimited by
facts of which registrants “are aware.” See Div. of Corp.
Fin., CF Disclosure Guidance: Topic No. 2, Cybersecurity,
SEC (Oct. 13, 2011), https://bit.ly/2Rij39Q (discussing
Item 105’s application to cybersecurity risks and advising
that “[i]n evaluating whether risk factor disclosure
should be provided, registrants should [] consider . . .
threatened attacks of which they are aware” (emphasis
added)). Indeed, it is precisely because of this sensible
limitation that companies are “well positioned to deter-

18
mine the particular nature of a risk” that may warrant
discussion under Item 105 and “to explain how a risk
affects them.” 85 Fed. Reg. at 63746.
The perils of the Third Circuit’s interpretation are
particularly acute in Securities Act cases brought under
§ 11, as cases involving Item 105 often are (including
Silverstrand and City of Pontiac). Although § 10(b) of
the Exchange Act requires that defendants act with
scienter for liability to attach, and § 14(a) requires that
defendants act with at least negligence, § 11 imposes
strict liability on issuers that “omi[t] to state a material
fact required to be stated [in a registration statement].”
15 U.S.C. § 77k(a). Registration statements associated
with stock offerings require disclosure of risk factors
under Item 105, and the scope of Item 105’s disclosure
obligation cannot vary based on the claim at issue.
Thus, under the Third Circuit’s expansive interpretation, issuers filing registration statements are
defenseless against claims that they violated Item 105
by failing to disclose facts of which they were not—or
even could not have been—aware.
That cannot be the law, as it would convert the
securities laws into a “scheme of investor’s insurance,”
contrary to Congress’s intent. Dura Pharms., Inc. v.
Broudo, 544 U.S. 336, 345 (2005). Under the appropriate “actual knowledge” standard that applies in
the First Circuit, issuers are strictly liable only for
omitting material risks of which they were aware, a
standard far more consistent with Congress’s desire to
protect not just investors through the federal securities laws, but also “securities issuers.” Chadbourne &
Parke LLP v. Troice, 571 U.S. 377, 390 (2014).
B. The Third Circuit’s holding that M&T was required
to disclose its alleged noncompliance with law is also
wrong.

19
As the Second Circuit held in City of Pontiac, Item
105 does not establish a “duty to disclose uncharged,
unadjudicated wrongdoing”—and that is for good reason.
752 F.3d at 184 (internal quotation marks omitted).
The federal securities laws are intended to promote “full
and fair disclosure,” Cal. Public Employees’ Retirement
System v. ANZ Securities, Inc., 137 S. Ct. 2042, 2047
(2017) (internal quotation marks omitted), not to place
the disclosing company in the shoes of its regulators
so that it can pass judgment on the lawfulness of its
own conduct. Assessing whether a corporate policy or
practice complies with applicable law is an “inherently
subjective and uncertain” exercise, Omnicare, Inc. v.
Laborers District Council Construction Industry Pension
Fund, 575 U.S. 175, 186 (2015), and, except in egregious cases, it is only with the clarity of hindsight
that a company can know that a court or regulator will
deem a given program or practice noncompliant. Rare
are cases of corporate misconduct “where there was
absolutely no doubt about illegality; ordinarily, there
would be contestable fact questions and legal defenses
available to the company.” Donald C. Langevoort,
Disasters and Disclosures: Securities Fraud Liability
in the Shadow of a Corporate Catastrophe, 107 Geo.
L.J. 967, 1001 (2019).
By requiring issuers and filers to preemptively
disclose “noncompliance” before any regulator or third
party has even raised a concern—much less made an
adverse determination—the Third Circuit thrusts corporations into an untenable position. Either they must
confess sins they do not believe themselves to have
committed (and which no regulator has accused them
of committing) or expose themselves to substantial
liability. And because Item 105 imposes a “mandat[ory]”
and affirmative disclosure obligation, a company cannot
protect itself by choosing not to speak. App. 17a n.10.

20
This case presents a fine example. M&T believed that
its BSA/AML procedures complied with applicable
law, and told shareholders so. See App. 8a, 30a n.17.
And, as the Third Circuit recognized in its discussion
of plaintiffs’ Omnicare theory, plaintiffs made “no allegation that M&T offered an insincere opinion” when it
addressed the matter of its regulatory compliance.
App. 31a. Yet, under the Third Circuit’s interpretation
of Item 105, M&T’s belief in its own compliance—an
“inherently subjective and uncertain” question—is of
no consequence. Omnicare, Inc., 575 U.S. at 186. In
light of the decision below, the bank faces liability for
failing to disclose deficiencies it did not perceive and
for failing to predict regulatory action it did not foresee.
The Third Circuit’s holding that Item 105 requires
disclosure of regulatory noncompliance is wrong for an
additional reason. A neighboring provision in Regulation
S-K, Item 103, specifies when a registrant must disclose
legal proceedings, and its reach is limited to proceedings that are either “pending” or “known to be
contemplated by governmental authorities.” 17 C.F.R.
§ 229.103(a). Well-settled principles of construction
dictate that Item 105, as the more general regulation,
may not be construed to displace the more specific
Item 103 by requiring the disclosure of a “risk factor”
that is material only because it could result in proceedings that would be governed by Item 103. See Long
Island Care at Home, Ltd. v. Coke, 551 U.S. 158, 170
(2007). The effect of the Third Circuit’s decision is to
impose a new, heightened disclosure requirement under
Item 105 that renders Item 103 essentially superfluous.

21
III. The questions presented are exceptionally
important.
The questions presented are of national importance
and warrant this Court’s immediate review.
A. The decision below creates a nightmare scenario
for SEC reporting companies, in which they are required
to disclose facts of which they do not know and that
have not been brought to their attention by a regulator
or otherwise. So long as they can be alleged to have
known of some high-level risk—like the risk of regulatory scrutiny for a financial institution (as here), the
risk of a design defect for a consumer-product company,
the risk of an unsuccessful medical trial for a pharmaceutical company, or the risk of a competitor’s patent
infringement suit for a cutting-edge technology firm—
disclosure of unknown facts that later cause the risk
to materialize is required. Worse, in holding that Item
105 requires disclosure of noncompliant practices and
procedures, the Third Circuit has imposed an affirmative obligation on public companies to self-report potential
“wrongdoing,” even before the relevant authority has
commenced an investigation into the specific underlying conduct. And not only must these companies
preemptively identify all potential regulatory deficiencies, they must accurately forecast whether the
authorities will someday deem a particular practice or
procedure noncompliant with applicable law.
The result is an impossible disclosure standard that
can be met only with the wisdom of hindsight. Absent
this Court’s intervention, the Third Circuit’s standard
will confound future filers, trigger an onslaught of
hindsight-based claims in a context that is uniquely
vulnerable to “abusive litigation,” and prompt a wave
of speculative disclosure that will serve only to confuse

22
rather than inform. Tellabs, Inc. v. Makor Issues &
Rts., Ltd., 551 U.S. 308, 313 (2007).
The litigation roadmap charted by the Third Circuit
is simple for plaintiffs to navigate and readily portable
to all sorts of public companies: (1) identify a corporate
event that has allegedly and unexpectedly harmed
shareholders (e.g., a regulatory penalty); (2) allege that
the company knew of the general category of risk that
the event fell within (e.g., regulatory scrutiny); and
(3) identify the facts that brought the risk to fruition
and, in retrospect, the company allegedly could have
uncovered and disclosed (e.g., the specific regulatory
deficiencies). That is all that is needed to state a claim
premised on Item 105 in the Third Circuit. And because
the Third Circuit has rendered the duty-to-disclose
element of such a claim so readily satisfied as to be
a nullity, many “plaintiffs with weak claims” will sail
past the pleadings stage and be well positioned “to
extort settlements from innocent companies.” Stoneridge
Inv. Partners v. Scientific-Atlanta, Inc., 552 U.S. 148,
163 (2008).
B. Circuit conflicts over the scope of the federal
securities laws are of heightened importance not only
because of the tax that frivolous securities litigation
levies on the public markets, but because the federal
securities laws’ broad venue provisions lend themselves to forum shopping. Both the Securities Act and
the Exchange Act authorize nationwide service of
process and confer venue in any district “wherein the
defendant is found or is an inhabitant or transacts
business.” 15 U.S.C. § 78aa(a) (Exchange Act); 15 U.S.C.
§ 77v(a) (Securities Act). As a result, the outlier position of a single circuit can become the de facto national
standard, both amplifying the importance of an erroneous
decision and impeding percolation of a federal securities

23
law question in the lower courts. And that is especially
so with respect to the decisions of the Third Circuit,
given Delaware’s status as the domicile of choice for
U.S. public companies.3
C. With new securities class actions being filed at
a record clip in 2019 (nearly double the 1997–2018
average), the dangers associated with an incorrect,
liability-expanding decision are all the more stark. See
Cornerstone Research, Securities Class Action Filings—
2019 Year in Review 1 (2020), https://bit.ly/35x8h7W.
“Each of the last three years—2017 through 2019—
has been more active than any previous year” with
respect to securities filing activity, id. at 3, resulting
in almost one in ten U.S. exchange-listed companies
facing a securities class action in 2019, id. at 11. The
Third Circuit was already a hotbed of this activity,
accounting for almost 80 percent of merger-based securities class actions in 2019, id. at 14, and serving as
the third-most popular circuit for other types of securities class actions, id. at 38. And now that the Third
Circuit has held that Item 105’s disclosure obligation
requires the disclosure of unknown facts and potential
misconduct, plaintiffs will have every incentive to
steer their claims there.
D. This confluence of factors warrants the Court’s
intervention. And this case is an ideal vehicle in which
to take up the scope of Item 105. The decision below
was exclusively confined to the same pure questions of
3

In 2019, 89 percent of U.S.-based companies that underwent
an initial public offering chose to incorporate in Delaware.
See Del. Div. of Corps., Annual Report Statistics,
https://corp.delaware.gov/stats/. Even where a company is not
incorporated in Delaware (or another state within the Third
Circuit), most will at least transact business there, such that
venue lies.

24
law presented here and offered an extensive treatment
of the scope of Item 105. Each of the questions is
outcome-determinative. And there are no factual or
procedural obstacles that will frustrate the Court’s
ability to reach the questions presented and resolve
them cleanly.
*

*

*

Given the extraordinarily high stakes, this Court
has repeatedly granted certiorari over the past decade
to establish and maintain uniform standards in
private securities litigation. See, e.g., Emulex Corp.,
139 S. Ct. 782 (2019) (Mem.); Cyan, Inc. v. Beaver
Cnty. Emps. Ret. Fund, 138 S. Ct. 1061 (2018); Leidos,
Inc. v. Ind. Pub. Ret. Sys., 137 S. Ct. 1395 (2017)
(Mem.); Omnicare, Inc., 575 U.S. 175 (2015); Chadbourne
& Parke LLP, 571 U.S. 377 (2014); Halliburton Co. v.
Erica P. John Fund, Inc., 573 U.S. 258 (2014); Amgen
Inc. v. Conn. Ret. Plans & Tr. Funds, 568 U.S. 455
(2013); Matrixx Initiatives, Inc. v. Siracusano, 563
U.S. 27 (2011).4 It should do so again here.

4

In many of these cases, the Court granted review where, as
here, a court of appeals had reversed or vacated the dismissal of
plaintiffs’ claims and remanded for further proceedings. See, e.g.,
Varjabedian v. Emulex Corp., 888 F.3d 399, 401 (9th Cir. 2018);
Indiana Pub. Ret. Sys. v. SAIC, Inc., 818 F.3d 85, 88 (2d Cir. 2016);
Siracusano v. Matrixx Initiatives, Inc., 585 F.3d 1167, 1169–70
(9th Cir. 2009); see also Broudo v. Dura Pharms., Inc., 339 F.3d
933, 935 (9th Cir. 2003).

25
CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted,
TRACY RICHELLE HIGH
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004
KEVIN R. SHANNON
POTTER ANDERSON
& CORROON LLP
1313 North Market Street
Wilmington, DE 19801

WILLIAM SAVITT
Counsel of Record
BRADLEY R. WILSON
ADAM L. GOODMAN
WACHTELL, LIPTON,
ROSEN & KATZ
51 West 52nd Street
New York, NY 10019
(212) 403-1000
WDSavitt@wlrk.com

BRIAN M. ROSTOCKI
REED SMITH
1201 Market Street
Wilmington, DE 19801
Counsel for Petitioners
November 15, 2020

APPENDIX

1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 17-3695
————
DAVID JAROSLAWICZ
v.
M&T BANK CORPORATION; HUDSON CITY BANCORP
INC.; *THE ESTATE OF ROBERT G. WILMERS, BY
ITS PERSONAL REPRESENTATIVES ELISABETH ROCHE
WILMERS, PETER MILLIKEN, AND HOLLY MCALLISTER
SWETT; RENE F. JONES; MARK J. CZARNECKI;
BRENT D. BAIRD; ANGELA C. BONTEMPO; ROBERT T.
BRADY; T. JEFFERSON CUNNINGHAM, III; GARY N.
GEISEL; JOHN D. HAWKE, JR.; PATRICK W.E. HODGSON;
RICHARD G. KING; JORGE G. PEREIRA; MELINDA
R. RICH; ROBERT E. SADLER, JR.; HERBERT L.
WASHINGTON; DENIS J. SALAMONE; MICHAEL W.
AZZARA; VICTORIA H. BRUNI; DONALD O. QUEST;
JOSEPH G. SPONHOLZ; CORNELIUS E. GOLDING;
WILLIAM G. BARDEL; SCOTT A. BELAIR
BELINA FAMILY; JEFF KRUBLIT,
Appellants
(*Amended pursuant to Clerk’s Order dated 3/1/18)
————
On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1-15-cv-00897)
District Judge: Honorable Richard G. Andrews
————

2a
Argued: July 17, 2018
Before: McKEE, MATEY, and SILER, JR.,†
Circuit Judges.
(Filed: June 18, 2020)
————
Deborah R. Gross
Kaufman Coren & Ress
2001 Market Street
Two Commerce Square, Suite 3900
Philadelphia, Pennsylvania 19103

[ARGUED]

Francis J. Murphy
Jonathan L. Parshall
Murphy & Landon
1011 Centre Road
Suite 210
Wilmington, Delaware 19805
Laurence D. Paskowitz
Suite 380
208 East 51st Street
New York, New York 10022
Counsel for Appellants Belina Family and Jeff Krublit
George T. Conway, III
Adam L. Goodman
Bradley R. Wilson
Jordan L. Pietzsch
Wachtell Lipton Rosen & Katz
51 West 52nd Street
New York, New York 10019
†

[ARGUED]

Honorable Eugene E. Siler, Jr., Senior Judge for the Sixth
Circuit Court of Appeals, sitting by designation.

3a
John C. Cordrey
Brian M. Rostocki
Reed Smith
1201 Market Street
Suite 1500
Wilmington, Delaware 19801
Counsel for Appellees M&T Bank Corporation, The Estate of Robert G. Wilmers, Rene F.
Jones, Mark J. Czarnecki, Brent D. Baird,
Angela C. Bontempo, Robert T. Brady, T.
Jefferson Cunningham, III, Gary N. Geisel,
John D. Hawke, Jr., Patrick W. E. Hodgson,
Richard G. King, Jorge G. Pereira, Melinda R.
Rich, Robert E. Sadler, Jr., and Herbert L.
Washington
Tracy R. High
Sullivan & Cromwell
125 Broad Street
New York, New York 10004
Kevin R. Shannon
Potter Anderson & Corroon
1313 North Market Street
Hercules Plaza, 6th Floor
P.O. Box 951
Wilmington, Delaware, 19801
Counsel for Appellees Denis J. Salamone,
Victoria H. Bruni, Donald O. Quest, Joseph G.
Sponholz, Scott A. Belair, Michael W. Azzara,
William G. Bardel and Cornelius E. Golding

4a
————
OPINION
————
MATEY, Circuit Judge.
It is a familiar story in the life of a publicly held
business. A corporation identifies an opportunity and
decides to ask its shareholders for their approval to
pursue. But the business runs in a highly regulated
space like finance. So the company proceeds through a
thick web of laws and regulations that detail how to
explain both the risks and the rewards of the opportunity to the shareholders. With a bit of good fortune,
all the hard work pays off when the shareholders give
their blessing. And then, after the deal is done, only
the class action hurdle remains. That is because for
more than five decades, these transactions have been
subject to a three-tier system of enforcement: oversight by Congress, supervision by regulators like the
Securities and Exchange Commission, and “private
attorneys general”1 pursuing “a private right of action.”
Gen. Elec. Co. v. Cathcart, 980 F.2d 927, 932 (3d Cir.
1992) (citing J.I. Case Co. v. Borak, 377 U.S. 426, 430–
31 (1964)).
We consider that final frontier of enforcement in this
appeal. Hudson City Bank (“Hudson”) and M&T Bank
Corporation (“M&T”) successfully merged in 2015. But
their union triggered a protest by a few Hudson shareholders, who filed a putative class action (together,
the “Shareholders”). The complaint alleged the banks
didn’t disclose material information about M&T’s
practice of adding fees to no-fee “free” checking
accounts or its failure to comply with federal antimoney laundering regulations. And despite a healthy
1

Most ascribe the colorful phrase to Judge Jerome Frank.
Associated Indus. N.Y. State, Inc. v. Ickes, 134 F.2d 694, 704 (2d
Cir. 1943), vacated, 320 U.S. 707 (1943).

5a
return on their investment, the Shareholders argue
these omissions or misstatements caused all Hudson
shareholders financial harm. In a comprehensive opinion, the District Court dismissed these claims. We
now vacate and remand for further proceedings based
on prior decisions allowing suits alleging inadequate
transparency or deception. We reiterate the longstanding limitations on securities fraud actions that
insulate issuers from second-guesses, hindsight clarity,
and a regime of total disclosure.
I. BACKGROUND
A. The Proposal
Chartered in 1868, Hudson grew to become one of
the largest savings banks in New Jersey. Avoiding
modern products and trends in favor of steady deposits
and safe mortgages, Hudson enjoyed a strong reputation of stability. But, following the 2008 recession,
Hudson struggled to hold its footing. It launched
reforms, shedding debt, eying diversification, and considering opportunities to merge. Eventually, Hudson
found a partner in M&T and the two banks struck a
deal. Investors appeared to welcome the announcement with M&T’s stock price rising on the news.
B. The Joint Proxy
The merger agreement promised Hudson shareholders a mixture of cash and M&T stock, and required
approval by the shareholders of both banks. To provide
the required notice, Hudson and M&T opted to issue a
Joint Prospectus (“Joint Proxy”) and filed a single
Form S-4 in accordance with SEC rules.2 That form
2

Firms may use Form S-4 to register securities issued in a
merger. (Docket Entry Dated July 13, 2018: Letter from David R.
Fredrickson, Chief Counsel/Associated Director, Division of

6a
requires issuers to provide, among other things, “the
information required by Item 503 of Regulation S-K.”
Item 503, since recodified as Item 105,3 asks for “the
most significant factors that make an investment in
the registrant or offering speculative or risky.” 17
C.F.R. § 229.105. Each “risk factor” requires an individual topic heading supported by information that is
both “concise and organized logically.” Id. Specificity
is key, as the regulation cautions filers to omit “risks
that could apply generically to any registrant or any
offering.” Id. And Item 105 is where the Shareholders
direct their attack, alleging this portion of the Joint
Proxy was misleading and incomplete. We turn to
those disclosures.
1. The “Risks Related to M&T”
As required, the Joint Proxy included a section titled
“Risks Related to M&T” (App. at 0237), with subsections on “Risks Relating to Economic and Market
Conditions,” “Risks Relating to M&T’s Business,” and
“Risks Relating to the Regulatory Environment.”
(App. at A0237–48.) Discussing the regulatory environment, the Joint Proxy noted that “M&T is subject
to extensive government regulation and supervision”
because of “the Dodd-Frank Act and related regulations.” (App. at A1010 (emphasis omitted).) It cautioned that “M&T expects to face increased regulation
of its industry as a result of current and possible
Corporate Finance, United States Securities and Exchange
Commission (July 12, 2018).) The form also allows for the filing
of a joint prospectus/proxy statement, as M&T and Hudson
elected to do here.
3

See FAST Act Modernization and Simplification of Regulation S-K, 84 FR 12674, 12716–17 (April 2, 2019). We will refer to
the current regulation.

7a
future initiatives.” (App. at A1010.) That will lead to
“more intense scrutiny in the examination process and
more aggressive enforcement of regulations on both
the federal and state levels,” which would “likely
increase M&T’s costs[,] reduce its revenue[,] and may
limit its ability to pursue certain desirable business
opportunities.” (App. at A1010.) The Joint Proxy also
stated that “from time to time, M&T is, or may become,
the subject of governmental and self-regulatory agency information-gathering requests, reviews, investigations and proceedings and other forms of regulatory
inquiry, including by the SEC and law enforcement
authorities.” (App. at A0248.) That ongoing oversight,
in turn, might lead to “significant monetary damages
or penalties, adverse judgments, settlements, fines,
injunctions, restrictions on the way in which M&T
conducts its business, or reputational harm.” (App. at
A0248.) And the Joint Proxy noted operational risks
“encompass[ing] reputational risk and compliance and
legal risk, which is the risk of loss from violations
of, or noncompliance with, laws, rules, regulations,
prescribed practices or ethical standards, as well
as the risk of noncompliance with contractual and
other obligations.” (App. at A0245.) That dense fog of
possible problems, as we will see, looms large.
2. Other Warnings
A few additional statements related to risk
appeared elsewhere in the Joint Proxy. A section
titled, “Regulatory Approvals Required for the
Merger” advised that “[c]ompletion of the merger . . .
[is] subject to the receipt of all approvals required to
complete the transactions contemplated by the merger
agreement . . . from the Federal Reserve Board.” (App.
at A1017.) And the Federal Reserve Board, “[a]s part
of its evaluation . . . , reviews: . . . the effectiveness of

8a
the companies in combatting money laundering.” (App.
at A1018.) While M&T “believe[d]” timely regulatory
approval was realistic, it was unsure. (App. at A1017;
see also App. at A1009.) Rather, M&T offered that:
Although we currently believe we should be
able to obtain all required regulatory approvals in a timely manner, we cannot be certain
when or if we will obtain them or, if obtained,
whether they will contain terms, conditions or
restrictions not currently contemplated that
will be detrimental to M&T after the completion of the merger or will contain a burdensome condition.
(App. at A1017.)
3. The Annual Report
At M&T’s election, the Joint Proxy incorporated
M&T’s 2011 Annual Report on Form 10-K as permitted by Form S-4. There, M&T warned that the Patriot
Act requires that “U.S. financial institutions . . .
implement and maintain appropriate policies, procedures and controls which are reasonably designed to
prevent, detect and report instances of money laundering.” (App. at A1028.) But investors could take comfort, the Joint Proxy explained, because M&T’s
“approved policies and procedures [are] believed to
comply with the USA Patriot Act.” (App. at A1028.)
C. New Disclosures, Governmental Intervention, and Regulatory Delay
M&T filed the Joint Proxy with the SEC, which was
declared effective on February 22, 2013, mailed it to
all shareholders five days later, and scheduled a vote
on the proposal for April. Then, a few days before the
ballots, M&T and Hudson announced that “additional

9a
time will be required to obtain a regulatory determination on the applications necessary to complete their
proposed merger.” (App. at A1041.) In a supplemental
proxy, M&T revealed that the Federal Reserve Board
identified “certain regulatory concerns” about “procedures, systems and processes relating to M&T’s Bank
Secrecy Act and anti-money-laundering compliance
program.”4 (App. at A1041.) M&T explained that to
address these concerns, “the timeframe for closing
the transaction will be extended substantially beyond
the date previously expected.” (App. at A1041.) As a
result, M&T and Hudson amended their merger agreement and moved the closure back several months.5 The
4

As the Joint Proxy notes, the merger required approval by
the Federal Reserve Board, among other regulators. As part of its
review, the Federal Reserve Board assesses the banks’ effectiveness in combatting money laundering, requiring a risk-management program incorporating the Bank Secrecy Act and antimoney-laundering (“BSA/AML”) compliance. See Uniting and
Strengthening America by Providing Appropriate Tools Required
to Intercept and Obstruct Terrorism (“USA PATRIOT”) Act of
2001, Pub. L. No. 107-56, 115 Stat. 272 (codified at various sections of the U.S. Code). Title III of the Act, captioned “International Money Laundering Abatement and Anti-Terrorist
Financing Act of 2001,” amended the Bank Secrecy Act, 31 U.S.C.
§ 5311 et seq., and “imposed more stringent requirements aimed
at money laundering.” Mendez Internet Mgmt. Servs., Inc. v.
Banco Santander de P.R., 621 F.3d 10, 13 (1st Cir. 2010). To
ensure compliance, banks must collect, process, and update
information necessary to make money-laundering risk determinations for every customer and account. Banks are also required
to have in place acceptable processes and policies to detect and
report related suspicious activity.
5

M&T provided more context a few days later during an
earnings conference call, explaining that the compliance issues
were significant enough to “impact [the] ability to close the
merger . . . in the near term.” (App. at A1048.) And M&T noted it
needed “to implement [a] plan for improvement . . . to the

10a
shareholder vote, however, remained as scheduled.
And these revelations did not deter the shareholders,
who overwhelmingly approved the merger. But it took
nearly two and a half more years before regulators
allowed the deal to close.
While the banks awaited the conclusion of the Federal Reserve review, M&T received more bad news.
The Consumer Financial Protection Bureau (“CFPB”)
announced an enforcement action against M&T for
offering customers free checking before switching
them to fee-based accounts without notice. A practice,
the CFPB noted, that was in place when the merger
was first proposed, and that had impacted nearly
60,000 customers. M&T agreed to pay $2.045 million
to settle the allegations, the approximate amount of
the customer injuries.
D. The Shareholder Suit
A few weeks before the merger closed, David
Jaroslawicz, a Hudson shareholder, filed a putative
class action against M&T, Hudson, and their directors
and officers (together, “M&T”). He claimed that the
Joint Proxy omitted material risks associated with the
merger in violation of the Securities Exchange Act, 15
U.S.C. § 78n(a)(1) and 17 C.F.R. § 240.14a-9(a). He
also brought a claim for breach of fiduciary duty under
Delaware law.6

satisfaction of . . . the regulators prior to obtaining regulatory
approvals for the merger.” (App. at A1048.)
6

The District Court later appointed the Belina family to serve
as lead plaintiffs for the class action.

11a
After the Shareholders filed an amended complaint,
M&T moved to dismiss for failure to plead an
actionable claim. The District Court granted that
motion, but allowed the Shareholders to amend. After
the Shareholders amended, M&T again moved to
dismiss. The District Court granted M&T’s motion.
See Jaroslawicz v. M&T Bank Corp., 296 F. Supp. 3d
670 (D. Del. 2017).
In their Second Amended Complaint, the Shareholders presented two theories of M&T’s liability for the
Joint Proxy’s deficiencies. First, because the Joint
Proxy did not discuss M&T’s non-compliant BSA/AML
practices and deficient consumer checking program,
the Shareholders contend that M&T failed to disclose
material risk factors facing the merger, as required by
Item 105. Second, they assert that M&T’s failure to
discuss these allegedly non-compliant practices rendered M&T’s opinion statements about its adherence
to regulatory requirements and the prospects for
prompt approval of the merger, misleading.
The District Court held that the Joint Proxy sufficiently disclosed the regulatory risks associated with
the merger. The Court also held that M&T did not
have to disclose the consumer checking violations
exposed after the merger announcement. And, applying Omnicare, Inc. v. Laborers District Council Construction Industry Pension Fund, 575 U.S. 175 (2015),
the Court found no misleading opinions. The Court
again allowed the Shareholders to amend the pleadings, but the Shareholders asked for a final order of
dismissal with prejudice to file this appeal.7

7

Following a panel decision of this Court, M&T petitioned for
en banc review or a panel rehearing, and we granted the latter
request. See Jaroslawicz v. M&T Bank Corp., 925 F.3d 605

12a
II. JURISDICTION AND
THE STANDARD OF REVIEW
The District Court had jurisdiction under 15 U.S.C.
§ 78aa, and 28 U.S.C. §§ 1331 and 1337. We have jurisdiction under 28 U.S.C. § 1291. As the Shareholders
bring their appeal from the District Court’s final order
granting a motion to dismiss with prejudice, we exercise plenary review. See In re NAHC, Inc. Sec. Litig.,
306 F.3d 1314, 1322–23 (3d Cir. 2002). But we are to
accept the facts in the light most favorable to the nonmoving party. Jones v. ABN Amro Mortg. Grp., Inc.,
606 F.3d 119, 123 (3d Cir. 2010). Dismissal is proper
only where the complaint fails to state a claim “that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (internal quotation marks omitted). A claim
is plausible “when the plaintiff pleads factual content
that allows the courts to draw the reasonable inference
that the defendant is liable for the misconduct
alleged.”8 Id.

(3d Cir. 2019). In its petition for rehearing, M&T waived the argument that the Shareholders’ Second Amended Complaint failed
to plausibly allege loss causation. (Appellees’ Reh’g Pet. at 6.)
8

The District Court reviewed the allegations under the
general pleading standard of Federal Rule of Civil Procedure 8,
but M&T argues that all § 14(a) claims are subject to the heightened pleading requirements of the Private Securities Litigation
Reform Act, 15 U.S.C. § 78u-4(b)(1). Still, the parties agree on
the statements alleged to have been misleading, do not dispute
their specificity, and thus do not argue that the pleading
standard is determinative.

13a
III. THE SHAREHOLDERS’ TWIN THEORIES
OF LIABILITY: ACTIONABLE OMISSIONS
AND MISLEADING OPINIONS
A. The Shareholders Plausibly Allege an
Actionable Omission or Misrepresentation
1. Actionable Omissions and Misrepresentations Defined
We start by setting some boundaries. The Shareholders have pleaded claims under Section 14(a) of the
Securities Exchange Act of 1934, as codified at 15
U.S.C. § 78n(a), and the regulations promulgated by
the Commission. But that statute does not provide for
a private right of action. And since “Congress creates
federal causes of action,” where “the text of a statute
does not provide a cause of action, there ordinarily is
no cause of action.” Johnson v. Interstate Mgmt. Co.,
849 F.3d 1093, 1097 (D.C. Cir. 2017); see also Antonin
Scalia & Bryan A. Garner, Reading Law: The Interpretation of Legal Texts 313 (2012) (“A statute’s mere
prohibition of a certain act does not imply creation of
a private right of action for its violation.”). But during
an “ancien regime,” courts followed a different path,
often finding “as a routine matter . . . impl[ied] causes
of action not explicit in the statutory text itself.” Ziglar
v. Abbasi, 137 S. Ct. 1843, 1855 (2017). And while
courts have since “adopted a far more cautious course
before finding implied causes of action,” id., in
securities fraud actions under § 14(a) what was then
is still now. Cathcart, 980 F.2d at 932 (citing Borak,
377 U.S. at 430–31); see also Halliburton Co. v. Erica
P. John Fund, Inc., 573 U.S. 258, 284 (2014) (Thomas,
J., concurring) (“[T]he implied 10b-5 private cause of
action is ‘a relic of the heady days in which this Court
assumed common-law powers to create causes of
action[.]’”) (quoting Corr. Servs. Corp. v. Malesko, 534

14a
U.S. 61, 75 (2001) (Scalia, J., concurring)). So while
courts have since “sworn off the habit of venturing
beyond Congress’s intent,” the Shareholders’ suit, for
now, still finds room in the half-empty “last drink”
poured in Borak. Alexander v. Sandoval, 532 U.S. 275,
287 (2001); see also Wisniewski v. Rodale, Inc., 510
F.3d 294, 298 (3d Cir. 2007) (noting Borak arrived
during an “older and less restrictive approach to
implied private rights of action”). Reconsideration of
that interpretation is beyond our role, Bosse v.
Oklahoma, 137 S. Ct. 1, 2 (2016), even if perhaps not
beyond the horizon. See Emulex Corp. v. Varjabedian,
139 S. Ct. 1407 (2019).
2. The Elements of an Omissions Claim
Section 14(a) makes it unlawful to solicit a proxy “in
contravention of such rules and regulations as the
[SEC] may prescribe as necessary or appropriate in
the public interest or for the protection of investors.”
15 U.S.C. § 78n(a)(1). It “seeks to prevent management or others from obtaining authorization for corporate actions by means of deceptive or inadequate disclosures in proxy solicitations.” Seinfeld v. Becherer,
461 F.3d 365, 369 (3d Cir. 2006) (internal quotations
marks omitted). In turn, Rule 14a-9, promulgated by
the SEC under the authority of Section 14(a), bars
“false or misleading” material statements and omissions in a proxy.9 The Shareholders allege that M&T

9

“No solicitation subject to this regulation shall be made by
means of any proxy statement . . . containing any statement
which, at the time and in the light of the circumstances under
which it is made, is false or misleading with respect to any
material fact, or which omits to state any material fact necessary
in order to make the statements therein not false or misleading[.]” 17 C.F.R. § 240.14a-9(a).

15a
violated Rule 14a-9, and thus Section 14(a), by issuing
a Joint Proxy lacking material information.
We have outlined a three-step test for liability under
Section 14(a), requiring a showing that: “(1) a proxy
statement contained a material misrepresentation or
omission which (2) caused the plaintiff injury and (3)
that the proxy solicitation itself, rather than the
particular defect in the solicitation materials, was an
essential link in the accomplishment of the transaction.” Tracinda Corp. v. DaimlerChrysler AG, 502 F.3d
212, 228 (3d Cir. 2007) (internal quotation marks
omitted). And omissions in a proxy statement can
violate Section 14(a) and Rule 14a-9 in one of two
ways: where “[(a)] the SEC regulations specifically
require disclosure of the omitted information in a
proxy statement, or [(b)] the omission makes other
statements in the proxy statement materially false
or misleading.” Seinfeld, 461 F.3d at 369 (internal
quotation marks omitted).
But not every omission or misrepresentation will
support a claim for damages. Tracinda Corp., 502 F.3d
at 228. Rather, stated or omitted information must be
“material,” and we have set forth a two-part definition.
Id. First, we determine whether “there is a substantial
likelihood that a reasonable shareholder would consider [the omission or misrepresentation] important in
deciding how to vote.” Id. (quoting Shaev v. Saper,
320 F.3d 373, 379 (3d Cir. 2003)). That involves an
assessment of whether “the disclosure of the omitted
fact or misrepresentation would have been viewed by
the reasonable investor as having significantly altered
the total mix of information made available.” EP
Medsystems, Inc., v. EchoCath, Inc., 235 F.3d 865, 872
(3d Cir. 2000) (internal quotation marks and brackets
omitted).

16a
Second, we assess the materiality of a statement
“at the time and in the light of the circumstances
under which it is made.” Seinfeld, 461 F.3d at 369
(quoting 17 C.F.R. § 240.14a-9(a)). So “liability cannot
be imposed on the basis of subsequent events,” In re
NAHC, 306 F.3d at 1330, and the Monday morning
quarterback remains on the bench.
3. The Second Amended Complaint Plausibly
Alleges Actionable Omissions
With the rules set, we turn to the words in the
complaint and in the governing regulations.
i. SEC Regulations
Guidance

and

Interpretive

The Shareholders allege M&T violated Section 14(a)
because the Joint Proxy omitted material “risk factors”
as required by Item 105, such as the condition of
M&T’s regulatory compliance program, and its failure
to disclose such risks made other statements misleading. As with statutory interpretation, our review of a
regulation centers on the ordinary meaning of the text
“and the court must give it effect, as the court would
any law.” Kisor v. Wilkie, 139 S. Ct. 2400, 2415 (2019).
That analysis uses all the “‘traditional tools’ of construction.” Id. (quoting Chevron, U.S.A., Inc. v. Nat.
Res. Def. Council, Inc., 467 U.S. 837, 843 n.9 (1984)).
The text of Item 105 directs issuers to:
[w]here appropriate, provide under the caption “Risk Factors” a discussion of the most
significant factors that make an investment
in the registrant or offering speculative or
risky. This discussion must be concise and
organized logically. Do not present risks that
could apply generically to any registrant or

17a
any offering. Explain how the risk affects the
registrant or the securities being offered.
Set forth each risk factor under a subcaption
that adequately describes the risk. . . . The
registrant must furnish this information in
plain English.
17 C.F.R. § 229.105. While “regulations can sometimes
make the eyes glaze over,” Kisor, 139 S. Ct. at 2415,
readers easily understand Item 105 to require issuers
to disclose the most significant factors known to make
an investment speculative or risky. And those factors
should be (a) concise and organized; (b) specific, not
generic; and (c) include an explanation connecting the
risks to the offer.10 17 C.F.R. § 229.105.
Language in guidance from the SEC details these
requirements. See Kisor, 139 S. Ct. at 2415 (discussing
the traditional “legal toolkit” of “text, structure,
history, and purpose of a regulation”); see also Krieger
v. Bank of Am., N.A., 890 F.3d 429, 438–39 (3d Cir.
2018) (discussing agency guidance to inform ordinary
meaning). A 1999 legal bulletin is particularly helpful.
See SEC Division of Corporation Finance: Updated
Staff Legal Bulletin No. 7, “Plain English Disclosure,”
Release No. SLB-7, 1999 WL 34984247 (June 7, 1999).
Under the section titled “Risk Factor Guidance,” the
10

The parties do not argue that Section 229.105 creates an
independent cause of action. Cf. Oran v. Stafford, 226 F.3d 275,
287–88 (3d Cir. 2000) (concluding that Item 303 does not create
an independent cause of action for private plaintiffs). And we
note that neither the language of Section 229.105, nor the SEC’s
interpretative guidance suggests that it does. Id. at 287. So our
inquiry turns on whether the duty of disclosure mandated by
Item 105, if violated, constitutes a material omission or misrepresentation under the standards of Section 14(a) and its
regulations.

18a
SEC explains that “issuers should not present risks
that could apply to any issuer or any offering.” Id. at
*1. The SEC also explains that Item 105 risk factors
fall loosely into three broad categories:
Industry Risk — risks companies face by
virtue of the industry they’re in. For example,
many [real estate investment trusts] run the
risk that, despite due diligence, they will
acquire properties with significant environmental issues.
Company Risk — risks that are specific to
the company. For example, a [real estate
investment trust] owns four properties with
significant
environmental
issues
and
cleaning up these properties will be a serious
financial drain.
Investment Risk — risks that are specifically tied to a security. For example, in a debt
offering, the debt being offered is the most
junior subordinated debt of the company.
When drafting risk factors, be sure to specifically link each risk to your industry, company, or investment, as applicable.
Id. at *5–6.
The bulletin includes a few illustrations contrasting
a generic discussion with a satisfactory disclosure. Id.
at *1, *6–7. Here’s one example:
Before:
Competition
The lawn care industry is highly competitive.
The Company competes for commercial and
retail customers with national lawn care

19a
service providers, lawn care product manufacturers with service components, and other
local and regional producers and operators.
Many of these competitors have substantially
greater financial and other resources than the
Company.
After:
Because we are significantly smaller
than the majority of our national
competitors, we may lack the financial
resources needed to capture increased
market share.
Based on total assets and annual revenues,
we are significantly smaller than the majority
of our national competitors: we are one-third
the size of our next largest national competitor. If we compete with them for the same geographical markets, their financial strength
could prevent us from capturing those markets.
For example, our largest competitor did the
following when it aggressively expanded five
years ago:

 launched extensive print and television
campaigns to advertise their entry into
new markets;

 discounted their services for extended
periods of time to attract new customers;
and

 provided

enhanced customer service
during the initial phases of these new
relationships.

20a
Our national competitors likely have the
financial resources to do the same, and we do
not have the financial resources needed to
compete on this level.
Because our local competitors are better
positioned to capitalize on the industry’s
fastest growing markets, we may emerge
from this period of growth with only a
modest increase in market share, at best.
Industry experts predict that the smaller,
secondary markets throughout the mid-west
will soon experience explosive growth. We
have forecasted that about 17% of our future
long-term growth will come from these markets. However, because it is common practice
for lawn care companies in smaller markets
to acquire customers through personal relationships, our competitors in nearly half of
these mid-west markets are better positioned
to capitalize on this anticipated explosive
growth. Unlike us, these local competitors
live and work in the same communities as
their and our potential customers.
For the foreseeable future, the majority of our
sales people who cover these markets will
work out of our two mid-west regional offices
because we lack the financial resources to
open local offices at this time. As a result,
we may substantially fail to realize our forecasted 17% long-term growth from these
markets.
Id. at *6. In short, while Item 105 seeks a “concise”
discussion, free of generic and generally applicable
risks, it requires more than a short and cursory

21a
overview and instead asks for a full discussion of the
relevant factors.11 17 C.F.R. § 229.105. That, as we will
see, is where the Joint Proxy fell, in a word, short.
ii. Interpretative
Courts

Guidance

from

Other

Two cases considering the scope of adequate disclosures under Item 105 are also instructive. In
Silverstrand Investments v. AMAG Pharmaceuticals,
Inc., the First Circuit identified plausible allegations
that a pharmaceutical company’s offering documents
failed to adequately convey risks associated with a
clinical drug. 707 F.3d 95, 108 (1st Cir. 2013). In the
offering, the company included details about the FDA
approval process and the results of clinical trials. Id.
at 98–99. But the company did not disclose almost two
dozen “Serious Adverse Events” it had reported to
the FDA. Id. at 99. Instead, the offering noted only
“ongoing FDA regulatory requirements” that carry the
risk of “restrictions on our ability to market and sell”
and other “sanctions.” Id. Reviewing both the language of the regulation and the SEC’s interpretive
guidance, the First Circuit held that “a complaint
alleging omissions of Item [105] risks needs to allege
sufficient facts to infer that a registrant knew, as of
the time of an offering, that . . . a risk factor existed.”
Id. at 103. And given the many adverse reports the
company submitted to the FDA, the court concluded

11

As the SEC explains, “[t]he goal of plain English is clarity,
not brevity. Writing disclosure in plain English can sometimes
increase the length of particular sections of your prospectus. You
will likely reduce the length of your plain English prospectus
by writing concisely and eliminating redundancies — not by
eliminating substance.” See SEC Legal Bulletin No. 7, 1999 WL
34984247, at *5.

22a
the allegations “more than suffice” to plead a plausible
claim of undisclosed risk. Id. at 104.
Compare those facts to City of Pontiac Policemen’s
and Firemen’s Retirement System v. UBS AG, 752 F.3d
173, 183–84 (2d Cir. 2014), alleging that UBS engaged
in a tax evasion scheme. Following the indictment of
UBS employees, the company disclosed “multiple legal
proceedings and government investigations” showing
exposure “to substantial monetary damages and legal
defense costs,” along with “criminal and civil penalties, and the potential for regulatory restrictions.” Id.
at 184 (internal brackets omitted). Not enough, argued
plaintiffs, claiming UBS was also required to disclose
that the fraudulent activity was, in fact, still ongoing.
Id. The Second Circuit sharply disagreed because
“disclosure is not a rite of confession, and companies
do not have a duty to disclose uncharged, unadjudicated wrongdoing.” Id. (internal quotation marks and
footnote omitted). To the contrary, by disclosing the
litany of possible problems that could flow from these
investigations, UBS complied with the directive of
Item 105. Id.
Both decisions rest soundly on the text of Item 105.
First, a cause of action for failing to disclose a material
risk naturally requires an allegation that a known risk
factor existed at the time of the offering. Silverstrand,
707 F.3d at 103. Second, in keeping with Item 105’s
call for a concise, not all-inclusive disclosure, registrants need not list speculative facts or unproven
allegations, even if they fit within one of the identified
factors. City of Pontiac, 752 F.3d at 184. And the
two standards reflect the outcomes. The registrant in
Silverstrand allegedly knew that the FDA would scrutinize the reported effects of its product, a gaze that
carried specific risks to their business. So allegations

23a
of failing to disclose that factor was enough to state a
claim. Compare that to the filer in City of Pontiac who
packed the proxy with a host of risks focused on the
company, its practices, the problems, and the possible
penalties. Asking for more, as the Second Circuit
noted, would create a new obligation grounded in
guesswork.
iii. M&T’s Disclosure in the Joint Proxy
Lacks Description and Context of Its
Compliance Risks
With these parameters, the shortcomings in M&T’s
proxy become clear. M&T omitted company-specific
detail about its compliance program. Yet M&T knew
that the state of its compliance program would be
subject to extensive review from federal regulators.
And it understood that failure to pass regulatory scrutiny could sink the merger. Taken together, M&T had
a duty to disclose more than generic information about
the regulatory scrutiny that lay ahead. Instead, and
contrary to the ordinary language of Item 105, it
offered breadth where depth is required.
Start with the allegations about the BSA/AML
compliance program. The Joint Proxy stated that
“[c]ompletion of the merger . . . [is] subject to the
receipt of all [regulatory] approvals,” a process that
includes review of “the effectiveness of the companies
in combatting money laundering.” (App. at A1017–18.)
It noted that “we cannot be certain when or if we
will obtain [the regulatory approvals] or, if obtained,
whether they will contain terms, conditions, or
restrictions not currently contemplated.” (App. at
A1017). And, “[l]ike all businesses, M&T is subject to
operational risk, which represents the risk of loss
resulting from human error, inadequate or failed
internal processes and systems, and external events.”

24a
(App. at A0245.) Such “[o]perational risk,” the Joint
Proxy noted, “also encompasses reputational risk
and compliance and legal risk, which is the risk of
loss from violations of, or noncompliance with, laws,
rules, regulations, prescribed practices or ethical
standards, as well as the risk of noncompliance with
contractual and other obligations.” (App. at A0245.)
And “[a]lthough M&T seeks to mitigate operational
risk through a system of internal controls . . . , no
system of controls . . . is infallible.” (App. at A0246).
Any “[c]ontrol weaknesses or failures or other operational risks could result in charges, increased operational costs, harm to M&T’s reputation or foregone
business opportunities.” (App. at A0246.)
So M&T identified that the merger hinged on
obtaining regulatory approval. And it singled out
that determining the effectiveness of its BSA/AML
program would be crucial to obtaining that approval.
In fact, in “every case under the Bank Merger Act” the
“[Federal Reserve] Board must take into consideration
. . . records of compliance with anti-money-laundering
laws.”12 (App. at 1083 (emphasis added).) As M&T
12

Other sources similarly support this conclusion. In its 2010
BSA/AML Examination Manual, the Federal Financial Institutions Examination Council (“FFIEC”) called Title III of the USA
PATRIOT Act “arguably the single most significant AML law that
Congress enacted since the BSA itself.” FFIEC, Bank Secrecy Act/
Anti-Money Laundering Examination Manual 8 (2010), https://
www.occ.treas.gov/static/ots/exam-handbook/ots-exam-handbook1400.pdf.
In both the 2010 Manual and the updated 2014 Manual, the
FFIEC warned that bank management “must be vigilant” in
BSA/AML compliance and stated: “Banks should take reasonable
and prudent steps to combat money laundering and terrorist
financing and to minimize their vulnerability to the risk associated with such activities. Some banking organizations have

25a
even noted, the Board is responsible for evaluating
BSA/AML compliance under the authority of two
separate statutes: Section 4 of the Bank Holding
Company Act of 1956 and Section 18(c) of the Federal
Deposit Insurance Act. (App. at A1018.) And so we
have no difficulty concluding that the regulatory
review process posed a significant risk to the merger
that would make it speculative or risky. Put another
way, M&T mentioned that regulatory hoops stood
between the proposed merger and a final deal.
But M&T failed to discuss just how treacherous
jumping through those hoops would be. Instead, M&T
offered information generally applicable to nearly any
entity operating in a regulated environment. In fact,
M&T said that: “[l]ike all businesses,” it was subject to
regulatory risk. (App. at A0245.) Contrary to Item
105’s directive, M&T’s explanation of the regulatory
review process offered no details and no more than
“[g]eneric or boilerplate discussions [that] do not
[explain] . . . the risks.” Silverstrand, 707 F.3d at 103.
Indeed, M&T’s generic statement about money
laundering compliance is not far from the risk statement offered in SEC guidance as inadequate. As recommended by the SEC’s guidance, M&T should have
“specifically link[ed]” its general statements to “each
risk to [its] industry, company, or investment” using
details that connected the pending merger review to
damaged their reputations and have been required to pay civil
money penalties for failing to implement adequate controls
within their organization resulting in noncompliance with the
BSA.” See FFIEC, Bank Secrecy Act/Anti-Money Laundering
Examination Manual 10 (2010), https://www.occ.treas.gov/static/
ots/exam-handbook/ots-exam-handbook-1400.pdf, and FFIEC,
Bank Secrecy Act/Anti-Money Laundering Examination Manual
6 (2015) (V2), https://bsaaml.ffiec.gov/manual.

26a
its existing and anticipated business lines.13 SEC
Legal Bulletin No. 7, 1999 WL 34984247, at *6. But
such concise and plain discussions of the significance
of regulatory review, framed in the context of M&T’s
particular business and industry, are absent from
the Joint Proxy. As a result, the Shareholders have
plausibly alleged that had M&T disclosed the state of
its BSA/AML program in the context of regulatory
scrutiny that program would face, “there is a substantial likelihood that a reasonable shareholder would
[have] consider[ed] it important in deciding how to
vote.”14 Seinfeld, 461 F.3d at 369.
M&T’s discussions about the problems surrounding
its consumer checking practice are likewise deficient.
Here, the Shareholders claim that M&T was, in fact,
aware of the malpractice. The Second Amended
Complaint alleges that M&T’s faulty practice—first
offering free checking, then switching customers to
accounts carrying fees—pre-dated the merger agreement. The Joint Proxy did not mention the noncompliant practice or the company’s steps to remediate
the action. And unlike the BSA/AML deficiencies,
13

The only specificity on the subject appears in M&T’s incorporated 2011 Annual Report stating, in sharp contrast, that it
had in place “approved policies and procedures believed to comply
with the USA Patriot Act.” (App. at A1028.)
14

M&T insists that even if the Proxy Statement warnings
could insufficiently state the BSA/AML deficiencies, at least the
“supplemental disclosures” ensured that “no reasonable shareholder would have been misled about the regulatory hurdles
the merger faced.” (Response Br. at 35.) But the supplemental
disclosures plausibly failed to cure the defect that had already
occurred given the omitted risks—both on the lateness of its
release and the sufficiency of the information conveyed. Least to
say, the effect of the supplemental disclosures raises an issue of
fact, which precludes dismissal for now.

27a
M&T did not later attempt to cure its omission—even
as it became aware that the merger faced indefinite
delays upon learning of the regulatory investigation
into the BSA/AML deficiencies. The Shareholders ask
that we infer that the consumer checking practices
cast doubt on M&T’s controls and compliance systems,
and posed an independent regulatory risk to the
merger material enough that a reasonable shareholder would consider it important in deciding how to
vote. On these facts, that inference is reasonable.
iv. Concision is Not Clairvoyance
M&T contends that this appeal “presents the question whether filers of stock-based merger proxies are
obligated, . . . to predict regulatory action before it
occurs.” (Appellees’ Supp. Br. at 1.) Indeed, Item 105
does not. Another regulation, Item 103, does require
disclosure of potential or present litigation or regulatory enforcement. 17 CFR § 229.103. So the “risk
factors” requiring disclosure under Item 105 are
separate from legal risks under Item 103. But M&T’s
contention assumes that only risks that are, or later
blossom into, regulatory enforcement actions require
disclosure. Item 105 is not so narrowly drawn, and we
cannot read a line into the law where one does not
exist. See Rotkiske v. Klemm, 140 S. Ct. 355, 360–61
(2019) (“It is a fundamental principle of statutory
interpretation that ‘absent provision[s] cannot be
supplied by the courts.’”) (quoting Scalia & Garner,
supra, at 94).
To be clear, we do not hold that the regulatory
enforcement actions by themselves required M&T to
disclose these issues.15 Later litigation or regulatory
15

Our decision in General Electric Co. v. Cathcart does not aid
M&T. In Cathcart, we held that “speculative disclosure [of

28a
enforcement does not create a retroactive duty to
disclose. But like the defendants in Silverstrand, M&T
knew the regulators would be looking into its
compliance program, and specifically its BSA/AML
effectiveness. They said so themselves. And they knew
the failure to obtain regulatory approval would be
significant, possibly fatal, to the merger. Yet, unlike
the defendants in City of Pontiac, M&T offered little
more than generic statements about the process of
regulatory review. The Shareholders also allege that
M&T knew that its consumer checking program
skirted regulatory standards, as they claim M&T
curtailed its misconduct shortly after signing the
merger agreement. Like BSA/AML compliance, we can
potential legal claims] is not required under Section 14(a).” 980
F.2d at 935. But Cathcart arose from the alleged failure to
disclose hypothetical future legal claims, particularly claims
against individual directors and officers—not against the company itself. Id. at 935–36. We concluded that the defendants had
no duty to disclose potential liability without pending or threatened litigation. Id. at 931. In doing so, we found that a reasonable
shareholder would not find the possibility of future claims against
directors and officers to be material—as opposed to litigation
against the company—unless it ripened into pending or threatened litigation. Id. at 936–37 (concluding that otherwise requiring General Electric to disclose potential litigation against all of
its 280,000 employees would “bury the shareholders in [an]
avalanche of trivial information”). And Cathcart distinguished its
determination of materiality in the context of liability of directors
and officers from materiality in the context of mergers, “in which
the shareholders would understandably focus on the operation of
the company as a whole.” Id. at 937. Here, it was not the future
threat of regulatory action that triggered the need for disclosure
under Item 105. Rather, it was the failure to disclose the risks
associated with the compliance program. It is thus plausible
to conclude that a reasonable shareholder would consider the
failure of M&T’s internal compliance program on these issues to
be a material element about the company’s operations.

29a
infer this practice posed a separate and significant
regulatory risk to the merger, as personal checking is
a principal business component of any consumer bank.
And so regulatory review of a bank’s consumer
checking practices as part of a merger would not be
unexpected. But whether M&T had actual knowledge
of the shortcomings in its BSA/AML compliance or its
consumer checking practices is of no moment; it is the
risk to the merger posed by the regulatory inspection
itself that triggered the need for disclosures under
Item 105. And the Shareholders have stated allegations that support a reasonable inference that the
omission of information related to these risks was
material, as evidenced by the threat to the merger
caused by the pervasiveness of these deficiencies. This
theory may not survive discovery, but it is enough for
plaintiffs to meet their pleading burden.
As a result, the Second Amended Complaint plausibly alleges that the BSA/AML deficiencies and consumer checking practices posed significant risks to the
merger before M&T issued the Joint Proxy. And based
on these allegations, it’s also plausible that disclosing
the weaknesses present in M&T’s BSA/AML and consumer compliance programs “would have been viewed
by the reasonable investor as having significantly
altered the total mix of information made available.”
EP Medsystems, Inc., 235 F.3d at 872 (internal quotation marks omitted). Thus, the Shareholders have met
their pleading burden.
B. The Shareholders Allege No Misleading
Opinions
We agree with the District Court that the Shareholders failed to allege an actionably misleading
opinion statement. The Supreme Court’s decision in
Omnicare provides the relevant framework, holding

30a
that an opinion statement is misleading if it “omits
material facts” about the “inquiry into or knowledge
concerning a statement of opinion.” 575 U.S. at 189.
But liability attaches only “if those facts conflict with
what a reasonable investor would take from the statement itself.” Id. Alleging an actionable claim under
this theory “is no small task,” id. at 194, because
a reasonable investor “understand[s] that opinions
sometimes rest on a weighing of competing facts;
indeed, the presence of such facts is one reason why an
issuer may frame a statement as an opinion.”16 Id. at
189–90.
The Shareholders’ allegations do not meet this
rigorous benchmark. First, they point to M&T’s
opinion on when it believed the merger might close
and the state of its BSA/AML compliance program in
its 2011 Annual Report.17 The Shareholders argue
both are misleading because the opinions turned out
to be wrong. But Omnicare rejected that premise,
holding “a[] [plaintiff] cannot state a claim by alleging
16

We have not considered whether Omnicare applies to claims
brought under the Exchange Act and under Section 14(a). But it
is unnecessary to resolve that question here. Even assuming
Omnicare’s holding applies, the Shareholders have failed to
allege an actionably misleading opinion.
17

The Joint Proxy states that “[a]lthough we currently believe
we should be able to obtain all required regulatory approvals in a
timely manner, we cannot be certain when or if we will obtain
them or, if obtained, whether they will contain terms, conditions
or restrictions not currently contemplated that will be detrimental to or have a material adverse effect on M&T or its subsidiaries after the completion of the merger.” (App. at A1009
(emphasis added); see also App. at A1017).) It adds “[t]he Registrant and its impacted subsidiaries have approved policies and
procedures that are believed to be compliant with the USA Patriot
Act.” (App. at A1028 (emphasis added).)

31a
only that an opinion was wrong . . . .” 575 U.S. at 194.
As there is no allegation that M&T offered an
insincere opinion, it “is not an untrue statement of
material fact, regardless [of] whether an investor can
ultimately prove the belief wrong.” Id. at 186 (internal
quotation marks omitted).
Second, the Shareholders allege the Joint Proxy
omitted facts about the process M&T followed to form
its opinions. They allege, again in conclusory fashion,
that M&T and Hudson acted negligently in reviewing
M&T’s compliance program. The Second Amended
Complaint alleges that while “M&T conducted intensive due diligence” of Hudson “from June 2012 through
August 27, 2012,” by contrast, Hudson did not begin
its “reverse due diligence” until August 20, 2012,
which lasted “at most five business days.” (App. at
A0935.) These efforts, the Shareholders allege, were
not enough, and show that the opinion statements
were insufficient. But the Shareholders omit particular facts about the banks’ conduct.
To begin, the Joint Proxy disclosed the duration
of the due diligence efforts. “[T]o avoid exposure for
omissions,” a speaker “need only divulge an opinion’s
basis, or else make clear the real tentativeness of its
belief.” Omnicare, 575 U.S. at 195. Thus, even if a
reasonable investor would have expected the banks to
conduct diligence over a longer period, the Joint Proxy
provided enough information to understand what the
banks did, information enough to decide how to vote.
And, in any event, general allegations of negligence do
not suffice. See id. at 195–96. In all, the opinions
flowed from the Joint Proxy’s description of the
increased scrutiny across the industry. Cautionary
language surrounds the opinions, warning of the
uncertainty of projections about regulatory approval.

32a
Under Omnicare, these opinions inform, rather than
mislead, a reasonable investor. And so we will affirm
the District Court’s dismissal of the Shareholders’
misleading opinion claims.
IV. CONCLUSION
We conclude with caveats, cautions, and qualms.
First, that the Shareholders have adequately pleaded
facts that, if true, might warrant remedy naturally
says nothing at this stage of the litigation about their
ultimate truth. Second, that M&T might have pursued
different choices managing its business is not the focus
of our decision. Rather, it is that M&T had an obligation to speak concisely about the risks surrounding
their plans.
Finally, our application of now well-established
principles of securities fraud class actions does not
alleviate our worry over the many well-argued doubts
about these kinds of aggregate claims. See, e.g., John
C. Coffee, Jr., Reforming the Securities Class Action:
An Essay on Deterrence and Its Implementation, 106
Colum. L. Rev. 1534, 1536 (2006) (explaining “class
actions produce wealth transfers among shareholders
that neither compensate nor deter”). Despite reams of
academic study, steady questions from the courts, and
periodic Congressional attention, the number of securities class actions continues to rise each year.18
Whether that tide represents an efficient current or
18

“Since 2012, securities-fraud suits have steadily increased
each year; most recently, there was a 7.5% year-over-year
increase in 2016 and an additional 15.1% jump in 2017.”
Congress, the Supreme Court, and the Rise of Securities-Fraud
Class Actions, 132 Harv. L. Rev. 1067, 1070 (2019) (citing
Cornerstone Research, Securities Class Action Filings: 2017 Year
in Review 39 (2018)).

33a
“muddled logic and armchair economics,” Halliburton,
573 U.S. at 297 (Thomas, J., concurring), is the sort of
question that deserves a more searching inquiry. In
the meantime, we will affirm the District Court’s dismissal of the Shareholders’ claims that M&T made
misleading opinion statements, and vacate the dismissal of the claims about M&T’s risk disclosure
obligations.

34a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
————
Civ. No. 15-897-RGA
————
DAVID JAROSLAWICZ, Individually and on
behalf of all others similarly situated,
Plaintiffs,
v.
M&T BANK CORPORATION, HUDSON CITY BANCORP,
INC., ROBERT G. WILMERS, RENÉ F. JONES, MARK J.
CZARNECKI, BRENT D. BAIRD, C. ANGELA BONTEMPO,
ROBERT T. BRADY, T. JEFFERSON CUNNINGHAM III,
GARY N. GEISEL, JOHN D. HAWKE, JR., PATRICK
W.E. HODGSON, RICHARD G. KING, JORGE G. PEREIRA,
MELINDA R. RICH, ROBERT E. SADLER, JR., HERBERT L.
WASHINGTON, DENIS J. SALAMONE, MICHAEL W.
AZZARA, VICTORIA H. BRUNI, DONALD O. QUEST,
JOSEPH G. SPONHOLZ, CORNELIUS E. GOLDING,
WILLIAM G. BARDEL, and SCOTT A. BELAIR,
Defendants.
————
MEMORANDUM OPINION
Francis J. Murphy, Jr., Esq. and Jonathan L. Parshall,
Esq. of Murphy & Landon, Wilmington, DE; Laurence
D. Paskowitz, Esq. of Paskowitz Law Firm P.C., New
York, NY; Deborah R. Gross, Esq. of Kaufman, Coren
& Ress, P.C., Philadelphia, PA; Roy Jacobs, Esq. of
Roy Jacobs & Associates, New York, NY. Counsel for
Plaintiffs.

35a
John C. Cordrey, Esq. of Reed Smith LLP, Wilmington,
DE; Geroge T. Conway III, Esq., Bradley R. Wilson,
Esq., and Jordan L. Pietzsch, Esq. of Watchtell, Lipton,
Rosen & Katz, New York, NY. Counsel for Defendants
M&T Bank Corporation, Robert G. Wilmers, René F.
Jones, Mark J. Czarnecki, Brent D. Baird, C. Angela
Bontempo, Robert T. Brady, T. Jefferson Cunningham
III, Gary N. Geisel, John D. Hawke, Jr., Patrick
W.E. Hodgson, Richard G. King, Jorge G. Pereira,
Melinda R. Rich, Robert E. Sadler, Jr., and Herbert L.
Washington.
Kevin R. Shannon, Esq. of Potter Anderson & Corroon,
Wilmington, DE; Tracy Richelle High, Esq. and Christen
M. Martosella, Esq. of Sullivan & Cromwell LLP,
New York, NY. Counsel for Defendants Hudson City
Bancorp, Inc., Denis J. Salamone, Victoria H. Bruni,
Donald O. Quest, Joseph G. Sponholz, Scott A. Belair,
Michael W. Azzara, William G. Bardel, and Cornelius
E. Golding.
October 27, 2017

36a
/s/ Richard G. Andrews
ANDREWS, U.S District Judge:
Plaintiffs are former stockholders of Hudson City
Bancorp before it merged with M&T Bank Corporation. (D.I. 72 ¶ 26). Defendants are Hudson City, M&T,
and their directors and officers at the time of the
merger. (Id. at ¶¶ 27-53). Pending before the court
is Defendants’ motion to dismiss Plaintiffs’ second
amended class action complaint (the “complaint”).
(D.I. 75). The complaint alleges that Defendants
violated Section 14(a) of the Securities Exchange Act
of 1934 (the “1934 Act”) by failing to make mandatory
disclosures and making misleading disclosures in the
proxy statement (the “Proxy”) issued in connection
with the merger. (D.I. 72 ¶¶ 129-54). For the reasons
discussed below, Defendants’ motion is granted and
the complaint is dismissed without prejudice.
I. BACKGROUND
Plaintiffs argue that Defendants violated Section
14(a) by failing to disclose that M&T was not in compliance with certain banking regulations, which would
delay regulatory approval and consequently the closing of the merger. Plaintiffs’ arguments are based on
disclosures in the Proxy, an April 12, 2013 press
release, and an April 15, 2013 earnings conference
call, the last two items referred to by Plaintiffs as the
“April Disclosures.” This section provides a rough
timeline of events before discussing in more detail the
contents of the Proxy and the April Disclosures.
A. Timeline of Events
On August 27, 2012, Defendants executed a merger
agreement pursuant to which M&T would acquire
Hudson City, and Hudson City stockholders could

37a
elect to receive either shares of M&T stock or cash
having a roughly equivalent value. (D.I. 72 ¶ 58).
Hudson City filed a preliminary Proxy with the
SEC on October 15, 2012 that became effective on
February 22, 2013. (Id. at ¶ 11). At the time the Proxy
became effective, Defendants expected the merger to
close in the second quarter of 2013. (D.I. 77-1 at 103).
On April 12, 2013, Defendants issued a press release
announcing delays in closing the merger due to additional time needed to obtain regulatory approval from
the Federal Reserve Board. (D.I. 72 ¶ 90). According to
the press release, the Federal Reserve had raised
“concerns” about “M&T’s procedures, systems and
processes relating to M&T’s Bank Secrecy Act and
anti-money-laundering compliance program.” (Id. at
¶ 11). M&T would need additional time to “demonstrate
its efficacy to the satisfaction of the Federal Reserve
and otherwise meet any other regulatory requirements that may be imposed in connection with these
matters.” (Id. at ¶ 90). On April 15, 2013, M&T had its
first quarter 2013 earnings conference call during
which it discussed the contents of the press release.
(Id. at ¶ 91).
On April 18, 2013, Hudson City stockholders voted
to approve the merger. (Id. at ¶ 6). Over a year later,
on October 9, 2014, the Consumer Financial Protection Bureau (“CFPB”) announced that it had taken
action against M&T for violating consumer disclosure
laws by offering free checking, but then switching
customers to accounts which carried fees. (Id. at ¶¶ 78). A year after that, on September 30, 2015, the
Federal Reserve approved the merger. (Id. at ¶ 117).
The complaint alleges that the Federal Reserve delayed
its approval due to M&T’s non-compliance with the
Bank Secrecy Act and anti-money-laundering regulations (“BSA/AML Regulations”) and violations of the

38a
consumer disclosure laws (the “Consumer Regulations”) addressed by the CFPB. (Id. at ¶¶ 4, 117). The
merger closed on November 1, 2015. (Id. at ¶ 6).
B. The Proxy Disclosures
The complaint alleges that the italicized portions of
the following statements were misleading. The first
statement discusses compliance and appears in M&T’s
annual report on Form 10-K for the year ended
December 31, 2011, which was incorporated into the
Proxy by reference. The second statement discusses
timing and appears in the Proxy.
[The USA Patriot Act] imposes obligations on
U.S. financial institutions, including banks
and broker dealer subsidiaries, to implement
and maintain appropriate policies, procedures and controls which are reasonably
designed to prevent, detect and report instances of money laundering . . . . In addition,
provisions of the USA Patriot Act require the
federal financial institution regulatory agencies to consider the effectiveness of a financial
institution’s anti-money laundering activities
when reviewing bank mergers and BHC
acquisitions. Failure of a financial institution
to maintain and implement adequate programs to combat money laundering and terrorist financing could have serious legal and
reputational consequences for the institution.
The Registrant and its impacted subsidiaries
have approved policies and procedures that
are believed to be compliant with the USA
Patriot Act.
(D.I. 72 ¶ 80 (alterations and emphasis in original)).

39a
Although we currently believe we should be
able to obtain all required regulatory approvals in a timely manner, we cannot be certain
when or if we will obtain them or, if obtained,
whether they will contain terms, conditions or
restrictions not currently contemplated that
will be detrimental to or have a material
adverse effect on M&T or its subsidiaries
after the completion of the merger.
(Id. at ¶ 81 (emphasis in original)). Several other
sections of the Proxy discussed timing for closing the
merger. For example, the section quoted by Plaintiffs
refers to another section of the Proxy, titled “The
Merger—Regulatory Approvals Required,” for more
details. That section states:
There can be no assurances that the regulatory approvals discussed above will be
received on a timely basis . . . . In recent
similar transactions, the Federal Reserve
Board has taken a longer time to render a
decision on applications than the typical time
period for approval set forth in the Federal
Reserve Board’s regulations.
(D.I. 77-1 at 101). In addition, the section titled
“Effective Time of the Merger” warns “there can be no
assurance as to when or if the merger will occur.” (Id.
at 103).
C. The April Disclosures
The April Disclosures discussed the seriousness of
the Federal Reserve’s concerns and the timing of the
merger close. In the earnings conference call on
April 15, 2013, M&T’s CFO René Jones had the
following dialogue with a caller about the Federal
Reserve’s findings:

40a
[Caller Question]: Has there been [an] MOU
or cease-and-desist order or any other form of
written agreement established with the Fed
regarding the BSA or the anti-moneylaundering issue?
[M&T Answer]: . . . if you think about how it
works as an industry matter, formal enforcement actions are disclosed by the appropriate
regulator, while some informal regulatory
matters such as MOUs and so forth are
disclosed by the institution if they’re material
from a securities law perspective. We didn’t
wait to receive any formal findings before
disclosing this issue last Friday. And as such,
we’re not really aware of any sort of final
outcomes or conclusions from the regulators.
We did this in part because of its impact on
Hudson City and we tried to be as proactive
as we possibly could.
(D.I. 77-6 at 8). With respect to timing, the April 12,
2013 press release stated in relevant part:
M&T and Hudson City believe that the
timeframe for closing the transaction will be
extended substantially beyond the date previously expected. M&T and Hudson City intend
to extend the date after which either party
may elect to terminate the merger agreement
if the merger has not yet been completed from
August 27, 2013 to January 31, 2014, but
there can be no assurances that the merger
will be completed by that date.
(D.I. 72 ¶¶ 90). Jones made similar statements about
timing in the conference call, including:

41a
 “[I]f you look at recent merger activity in
the banking sector, the trend seems to be
that it’s taking notably longer to get
regulatory approvals. Said another way, we
don’t take regulatory approval for granted.”
(D.I. 77-6 at 4).
 “[T]o be able to complete the merger we’ll
need to obtain the regulatory approvals
which by their nature are pretty uncertain.
But if we can do so, we’ll try to get them as
soon as possible. But that said, we’ve not
really provided you with a specific date at
this time. And I would say that from our
perspective it really seems prudent for us to
really not to engage in that discussion until
maybe later towards the end of the summer.” (Id. at 9).
 “[I]n terms of talking about timing, you just
can’t do it.” (Id. at 11).
II. STANDARD OF REVIEW
To survive a motion to dismiss under Fed. R. Civ. P.
12(b)(6), Plaintiffs must plead facts sufficient to “state
a claim to relief that is plausible on its face.” Ashcroft
v. Iqbal, 556 U.S. 662, 677-78 (2009). The court must
accept all well-pleaded factual allegations in the
complaint as true, and view them in the light most
favorable to the Plaintiffs. In re Fisker Auto. Holdings,
Inc., 2017 WL 492996, at *2 (D. Del. Feb. 7, 2017).
But the court need not accept as true allegations
in the complaint contradicted by documents on
which the complaint relies. In re: Enzymotec Sec.
Litig., 2015 WL 8784065, at *11 (D.N.J. Dec. 15, 2015).
The court’s review is limited to the allegations in
the complaint, exhibits attached to the complaint,

42a
documents incorporated by reference, and items
subject to judicial notice. Mayer v. Belichick, 605 F.3d
223, 230 (3d Cir. 2010).
Defendants argue that the complaint is also
subject to the heightened pleading standard of the
Private Securities Litigation Reform Act of 1995 (the
“PSLRA”) codified at 15 U.S.C. § 78u-4(b)(1). (D.I. 76
at 8). In resolving the motion to dismiss the prior
complaint, the court ruled that Plaintiffs’ claims
were not subject to the PSLRA’s heightened pleading
standard, because the claims sounded in negligence.
(D.I. 70 at 7). The court sees no reason to revisit this
issue when Defendants do not rely on the heightened
pleading standard to argue that Plaintiffs failed to
state a claim, and the court finds that dismissal is
warranted even under Fed. R. Civ. P. 8.
III. DISCUSSION
Section 14(a), and Rule 14a-9 promulgated thereunder, prohibit a corporation from issuing a proxy “containing any statement which . . . is false or misleading
with respect to any material fact, or which omits to
state any material fact necessary in order to make the
statements therein not false or misleading.” 15 U.S.C.
§ 78n(a)(1); 17 C.F.R. § 240.14a-9(a). Plaintiffs argue
that Defendants violated Section 14(a) in three ways:
(1) by failing to disclose significant “risk factors” as
required under Item 503 of Regulation S-K, (2) by
making misleading opinion statements, and (3) by
making “belated disclosures” a few days before the
stockholder vote. (D.I. 78 at 10-13). Before addressing
each of these theories, the court must first explain why
it rejects Plaintiffs’ various arguments that the motion
to dismiss is procedurally improper.

43a
A. Procedural Arguments
Plaintiffs argue that this motion to dismiss is
procedurally improper in various ways. (D.I. 78 at
6-10). First, Plaintiffs argue that the court should
construe the motion to dismiss as an untimely motion
for reargument of the previous motion to dismiss the
first amended complaint. (Id. at 6-7). But, there was
no reason for Defendants to seek reargument. The
court granted Defendants’ previous motion. (D.I. 70).
Second, Plaintiffs argue that the law of the case
doctrine requires that the court to deny the motion to
dismiss. (Id. at 9 n. 14) The law of the case doctrine
provides that “when a court decides upon a rule of
law, that decision should continue to govern the same
issues in subsequent stages in the same case.”
Christianson v. Colt Indus. Operating Corp., 486 U.S.
800, 816 (1988). But the doctrine “does not limit the
power of trial judges to reconsider [its own] prior
decisions.” Williams v. Runyon, 130 F.3d 568, 573 (3d
Cir. 1997). In addition, “[i]nterlocutory orders remain
open to trial court reconsideration, and do not constitute the law of the case.” United States ex rel. Petratos
v. Genentech Inc., 855 F.3d 481, 493 (3d Cir. 2017)
(internal punctuation omitted) (quoting Perez-Ruiz v.
Crespo-Guillen, 25 F.3d 40, 42 (1st Cir. 1994)).
Finally, Plaintiffs argue that this motion is barred
by Fed. R. Civ. P. 12(g)(2), which prohibits a party
from filing successive motions that “rais[e] a defense
or objection that was available to the party but omitted
from its earlier motion.” (D.I. 78 at 9-10). Plaintiffs,
however, run afoul of the requirements of Rule
12(g)(2), because the defenses raised on this motion
were neither “available” nor “omitted” from the previous motion. Some of the defenses challenge the sufficiency of new allegations in the amended complaint, so

44a
those defenses were not previously available. Other
defenses reiterate defenses raised in the previous
motion, so they were not previously omitted. Accordingly, the court does not find Defendants’ motion to
dismiss to be procedurally improper.
B. Mandatory Disclosures Under Item 503
Plaintiffs argue that Defendants violated Section
14(a) by omitting from the Proxy significant risk
factors required under Item 503(c).1 (D.I. 78 at 11).
Item 503(c) requires the prospectus to provide under
the caption “risk factors” a “concise discussion” of “the
most significant factors that make the offering
speculative or risky.” 17 C.F.R. § 229.503(c). Plaintiffs
argue that Defendants violated Item 503(c) by not
disclosing that “the Merger would be delayed or denied
(or that M&T would suffer sanctions) due to the
Consumer Violations, and the substantial deficiencies
in BSA/AML compliance.” (D.I. 78 at 11). Plaintiffs’
claim fails, however, because “[i]t is indisputable that
there can be no omission where the allegedly omitted
facts are disclosed.” In re JP Morgan Auction Rate Sec.
(ARS) Mktg. Litig., 2014 WL 4953554, at *17 (S.D.N.Y.
Sept. 30, 2014). Here, there is a section of the Proxy

1

Item 503(c) does not always apply to proxy statements filed
under the Securities Exchange Act of 1934. See Alan R. Bromberg
et al., Bromberg & Lowenfels on Securities Fraud 5-401 (2d ed.
2017) (“By its terms, Item 503(c) is not applicable to filings under
the 1934 Act.”). The parties, however, agree that Item 503(c)
applies here, because the merger consideration included securities registered under the Securities Act of 1933. (D.I. 83). As a
result, the Proxy had to include information required by Form
S-4. 17 C.F.R. § 240.14a-101, Item 14. Form S-4 incorporates the
disclosure requirements of Item 503 of Regulation S-K. See Form
S-4, p. 6 (Item 3).

45a
titled “risk factors” (see D.I. 63-1 at 27) that concisely
states in relevant part:


“Regulatory Approvals May Not Be Received,
May Take Longer than Expected or May
Impose Conditions that Are Not Presently
Anticipated or Cannot Be Met.” (Id. at 29).



“[G]overnmental entities may impose conditions on the granting of such approvals. Such
conditions or changes and the process of
obtaining regulatory approvals could have the
effect of delaying completion of the merger . . . .
The regulatory approvals may not be received
at any time, [and] may not be received in a
timely fashion. . . .” (Id.).



“M&T is subject to operational risk, which
represents the risk of loss resulting from
human error, inadequate or failed internal
processes and systems, and external events.
Operational risk also encompasses reputational risk and compliance and legal risk,
which is the risk of loss from violations of, or
noncompliance with, laws, rules, regulations,
prescribed practices or ethical standards, as
well as the risk of noncompliance with contractual and other obligations.” (Id. at 40).



“Although M&T seeks to mitigate operational
risk through a system of internal controls
which are reviewed and updated, no system of
controls, however well designed and maintained, is infallible. Control weaknesses or
failures or other operational risks could result
in charges, increased operational costs, harm
to M&T’s reputation or foregone business
opportunities.” (Id. at 41).

46a
Other sections of the Proxy provided more detail
around the risks related to the Federal Reserve’s
review of M&T’s compliance with BSA/AML in particular. (See, e.g., D.I. 72 ¶ 68). There was no discussion
in the Proxy of risks related to the CFPB or the
Consumer Violations in particular. But Plaintiffs have
not plausibly alleged that either posed a significant
risk at the time the Proxy issued. Instead, Plaintiffs
ask the court to infer from the CFPB action taken in
October 2014 that those risks existed in February
2013. (See, e.g., D.I. 78 at 17 (“If M&T did not have
proper documentation as to millions of customers in
2015, it surely did not have such information in early
2013.”)). “To be actionable, a statement or omission
must have been misleading at the time it was made;
liability cannot be imposed on the basis of subsequent
events.” In re NAHC, Inc. Sec. Litig., 306 F.3d 1314,
1330 (3d Cir. 2002); see also Williams v. Globus Med.,
Inc., 869 F.3d 235, 244 (3d Cir. Aug. 23, 2017) (stating
that plaintiffs cannot rely “exclusively on hindsight” to
show that the challenged statements were misleading
when made).
For all of these reasons, Plaintiffs have failed to
state a claim based on Item 503(c).
C. Misleading Opinions Under Omnicare
The complaint alleges that the Proxy was materially
misleading or incomplete when it stated that: (1) M&T
had “approved policies and procedures that are
believed to be compliant with the USA Patriot Act”
(the “compliance opinion”); and (2) Defendants “currently believe we should be able to obtain all required
regulatory approvals” and complete the merger “in a
timely manner” (the “timing opinion”). (D.I. 72 ¶¶ 8081). These statements are opinions and, therefore,
not actionable unless Plaintiffs’ claims satisfy the

47a
standards set forth by the U.S. Supreme Court
in Omnicare, Inc. v. Laborers District Council
Construction Industry Pension Fund, 135 S. Ct. 1318
(2015). Under Omnicare, an opinion is actionable only
if: (1) the speaker did not actually hold the stated
belief at the time made; (2) the opinion contains
“embedded statements of fact” that were untrue; or
(3) the speaker omitted material facts about its “inquiry
into or knowledge concerning a statement of opinion”
that “conflict with what a reasonable investor would
take from the statement itself.” Id. at 1318, 1326-29.
Plaintiffs are proceeding under the third prong.2 To
state a claim under the omission prong “is no small
task.” Id. at 1332. “The investor must identify particular (and material) facts going to the basis for the
issuer’s opinion . . . whose omission makes the opinion
statement at issue misleading to a reasonable person
reading the statement fairly and in context.” Id.
Omnicare describes two ways that an omission
can make an opinion misleading. One is based on
knowledge and the other is based on process. First, a
speaker may be liable where the proxy omits
information “in the [speaker’s] possession at the time”
that did not “fairly align” with the opinion. Id. at 1329.
For example, if the speaker opines that it was compliant with the law “in the face of its lawyers’ contrary
advice or with knowledge that the Federal Government was taking the opposite view,” and the speaker
does not also disclose those contrary views, then the
omission could be misleading. Id. Here, the complaint
2

The claims are grounded in negligence, not fraud, meaning
the complaint does not allege that Defendants did not actually
hold the stated beliefs. (D.I. 72 ¶¶ 130 & 144). In addition, plaintiffs have not disputed Defendants’ assertion that the opinions do
not contain embedded statements of fact. (D.I. 76 at 13; D.I. 78).

48a
does not allege that Defendants had material
information in their possession at the time the Proxy
issued that did not fairly align with the compliance
opinion. Instead, it alleges the opposite. (See, e.g.,
D.I. 72 ¶ 76 (“M&T . . . failed to detect and disclose
that M&T failed to legally comply with BSA/AML
and PATRIOT Act requirements”); id. at ¶ 92 (stating that the deficiencies “were not discovered” by
Defendants)).3
Second, a speaker may be liable if the proxy omits
material facts about “how the speaker has formed the
opinion” and those facts conflict with what a reasonable investor would expect from reading the opinion
“fairly and in context.” Omnicare, 135 S.Ct. at 132829, 1332. For example, a reasonable investor usually
expects a speaker to consult with a lawyer before
3

Plaintiffs allege that “some executives” within M&T must
have been aware of the consumer violations because these violations “were intentionally curtailed prior to the drafting of the
[Proxy].” (D.I. 78 at 15). But the court cannot reasonably infer
from this vague allegation that Defendants were aware of the
consumer violations when plaintiffs assert in the same sentence
that these violations “could have been discovered by M&T and the
other Defendants.” (Id.). The complaint also alleges that the
Federal Reserve expressed “concern” before the Proxy issued, but
bare allegations of concern do not plausibly show that Defendants
had in their possession information that did not fairly align with
the compliance opinion. See, e.g., Tongue v. Sanofi, 816 F.3d 199,
212 (2d Cir. 2016) (“[F]atal to Plaintiffs’ case is the absence of any
serious conflict between the FDA’s interim, albeit repeated,
concerns about methodology and Defendants’ optimism about
FDA approval.”); Cf. In re Westinghouse Sec. Litig., 90 F.3d 696,
711 (3d Cir. 1996) (“The fact that internal auditors also recommended improvements in valuation methods and tighter standards for internal valuations does not support plaintiffs’ claim that
. . . [the company] fraudulently or even inaccurately represented
its internal controls as adequate.”).

49a
opining that its conduct is lawful. Id. at 1328. If the
speaker did not consult with a lawyer and the proxy
omits that fact, then the speaker may be liable. Id.
Similarly, if a CEO opines that her company’s TV had
the highest resolution available on the market, then a
reasonable investor expects that the CEO would have
reviewed her competitor’ product specifications. Id. at
1329 n. 6. If the CEO did not review her competitors’
product specifications and this information was not
disclosed, then the omission could be misleading. Id.
Here, the complaint does not plead, as required by
Omnicare, particular facts about what Defendants did
or did not do in forming the compliance opinion.
Instead, the complaint pleads hypotheticals. (See, e.g.,
D.I. 72 ¶ 14 (“Had any of the defendants at that time
performed adequate due diligence, they would have
discovered . . . that M&T’s ‘Know Your Customer’
obligations . . . were non-compliant”); id. at ¶ 79 (“A
trained, independent consultant would have been able
to detect that M&T had not properly validated and
verified customer identities as to millions of customers
through accepted sampling techniques, similar to
those employed by regulators.”)). Hypotheticals are
not sufficient to state a claim. See Omnicare, 135 S.Ct.
at 1333 (explaining that the complaint must allege
“particular” facts not a “conclusory allegation” that
defendants “lacked reasonable grounds for the belief it
stated”); Southeast Pa. Transp. Auth. v. Orrstown Fin.
Serv., Inc., 2016 WL 7117455, at *14 (M.D. Pa. Dec. 7,
2016) (dismissing Omnicare claim where plaintiffs
alleged that the auditor “should have known,” and
“any reasonable auditor would have ‘discovered,’” the
material weaknesses in company’s internal controls

50a
because plaintiff failed to “identify actual and material
steps taken or not taken” by the auditor).4
Finally, “whether an omission makes an expression
of opinion misleading always depends on the context,”
including “all its surrounding text, including hedges,
disclaimers, and apparently conflicting information.”
Omnicare, 135 S.Ct. at 1330. Taking context into
account, no reasonable investor would have been misled by the timing opinion. Plaintiffs cherry-picked the
phrase “timely manner” out of a caveat about timing:
“Although we currently believe we should be able to
obtain all required regulatory approvals in a timely
manner, we cannot be certain when or if we will obtain
them. . . .” (D.I. 72 ¶ 81). This sentence was surrounded
by other warnings in the Proxy that there were “no
assurance as to when or if the merger will occur.” (D.I.
77-1 at 103; see also id. at 101). Accordingly, the Proxy
warned not only that regulatory approvals may take
longer than expected, but that they may never come at
all. For all of these reasons, the complaint fails to state
a claim based on the compliance opinion, the timing
opinion, or both.

4

Plaintiffs also argue that securities law (as opposed to fiduciary duty law) imposes due diligence obligations that Defendants
failed to fulfill. (D.I. 72 ¶¶ 11, 57). But the sole case they cite for
their proposition is inapposite. (D.I. 78 at 14). In re WorldCom,
Inc. Securities Litigation addressed the affirmative defense under
Section 11(b) available to any defendant other than the issuer if
the defendant had, “after reasonable investigation, reasonable
ground to believe and did believe” there were no untrue statements or misleading omissions. 346 F. Supp. 2d 628, 662
(S.D.N.Y. 2004) (quoting 15 U.S.C. § 77k(b)(3)(A)). The availability of an affirmative defense of due diligence does not create an
affirmative duty to perform due diligence.

51a
D. The April Disclosures
Plaintiffs argue in their brief that that the April
disclosures were materially misleading and untimely,
in violation of Section 14(a). (D.I. 78 at 10, 13, 18).
There are, however, no counts in the complaint based
on the April disclosures. (See D.I. 72 ¶¶ 129-54).
Instead, the complaint alleges that the April disclosures “did not adequately cure” Defendants’ Section
14(a) violations in the Proxy. This is an entirely
different theory. (Id. at ¶¶ 140, 152). A plaintiff cannot
amend its complaint through briefing. Jaroslawicz v.
M&T Bank Corp., 2017 WL 1197716, at *6 (D. Del.
Mar. 30, 2017). Accordingly, the court will not address
the substance of the parties’ argument on this claim,
except to briefly address Plaintiffs’ authorities
regarding timing.
First, Plaintiffs’ rely on SEC Release No. 34-33768
and SEC Release No. 34-24296 for the proposition that
“proxy laws require ample time for voters to consider
the information provided.” (D.I. 78 at 13). But these
releases do not support Plaintiffs’ assertions. SEC
Release No. 34-33768 addresses a registrant’s obligation under Rule 14a-13(a)(4) to distribute proxy
materials to banks and brokers sufficiently in advance
of the meeting date to allow those banks and brokers
to forward the proxy materials to beneficial owners.
1994 WL 83914, at *1 (SEC Mar. 16, 1994). Because
Defendants were not acting as record holders of stock
on behalf of beneficial owners, the release is inapplicable. SEC Release No. 34-24296 addresses requirements under Rules 14d-4(c), 14d-6(d), and 13e-4(d)(2)
and (e)(2) to disseminate material changes to the
terms of a tender offer promptly. 1987 WL 847536, at
*3 (SEC Apr. 3, 1987). M&T was not engaged in a
tender offer, making this release inapplicable.

52a
Second, Plaintiffs cite several cases where courts
granted injunctions that delayed a stockholder vote for
a certain number of days so that stockholders had time
to receive and consider supplemental disclosures.
(See D.I. 78 at 13). Plaintiffs argue that Defendants
violated Section 14(a) by issuing the April Disclosures
in less time than the length of those injunctions. (Id.).
Plaintiffs, however, did not seek and are not seeking
an injunction. The merger between M&T and Hudson
City has already closed. Accordingly, the court is
reluctant to find that remedies formed in the crucible
of a preliminary injunction proceeding are the basis for
an independent cause of action for damages under
Section 14(a). If Plaintiffs want to pursue a claim
based on the timing of the April Disclosures, Plaintiffs
need to present authorities showing that securities
law offers a post-closing remedy for this claim. Cf. La.
Mun. Police Employees’ Ret. Sys. v. Crawford, 2007
WL 625006, at *1 (Del. Ch. Feb. 13, 2007) (granting
temporary restraining order where stockholder faced
irreparable harm from not having “adequate time” to
consider material information disclosed “almost upon
the eve of a vote”).
IV. CONCLUSION
For the foregoing reasons, Defendants’ motion to
dismiss (D.I. 75) is GRANTED. The second amended
class action complaint (D.I. 72) is DISMISSED WITHOUT PREJUDICE. Plaintiffs are granted leave to
amend. An appropriate order will be entered.

53a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
————
No. 17-3695
————
DAVID JAROSLAWICZ
v.
M&T BANK CORPORATION; HUDSON CITY BANCORP
INC.; THE ESTATE OF ROBERT G. WILMERS, BY
ITS PERSONAL REPRESENTATIVES ELISABETH ROCHE
WILMERS, PETER MILLIKEN, AND HOLLY MCALLISTER
SWETT; RENE F. JONES; MARK J. CZARNECKI;
BRENT D. BAIRD; ANGELA C. BONTEMPO; ROBERT T.
BRADY; T. JEFFERSON CUNNINGHAM, III; GARY N.
GEISEL; JOHN D. HAWKE, JR.; PATRICK W.E. HODGSON;
RICHARD G. KING; JORGE G. PEREIRA; MELINDA
R. RICH; ROBERT E. SADLER, JR.; HERBERT L.
WASHINGTON; DENIS J. SALAMONE; MICHAEL W.
AZZARA; VICTORIA H. BRUNI; DONALD O. QUEST;
JOSEPH G. SPONHOLZ; CORNELIUS E. GOLDING;
WILLIAM G. BARDEL; SCOTT A. BELAIR,
BELINA FAMILY; JEFF KRUBLIT,
Appellants
————
(D. Del. No. 1-15-cv-00897)
————
ORDER
————

54a
PRESENT: McKEE, VANASKIE, and SILER, Jr.,*
Circuit Judges
The above-captioned appeal has been scheduled for
oral argument before a panel of this Court on July 17,
2018. The Court invites the Securities and Exchange
Commission to file a brief as amicus curiae addressing
the following questions:
(1) In the Commission’s opinion, under 17 C.F.R.
229.503(c), does the board of a financial institution
have a duty to conduct reasonable due diligence to
ascertain “the most significant factors” that make a
merger risky BEFORE preparing a proxy letter for a
proposed merger?
(2) May a statement of those risks be generalized
to all financial institution mergers or must those
statements be specific to the risks associated with the
specific merger at hand - or specific to those risks that
were or could have been discovered during due
diligence? In other words, can a proxy request letter
meet its duty to disclose “all important information,”
where it gives a generalized disclaimer about the risks
present in all financial institution mergers but
neglects to disclose that one of the parties to the
proposed merger has serious regulatory violations that
could derail or significantly delay a merger?
(3) What is the Commission’s opinion of how
Omnicare, Inc. v. Laborer District Council, 135 S. Ct.
1318 (2015) affects the two questions above in the
context of claims under section 10(b) of the Exchange
Act?

*

Honorable Eugene E. Siler, Jr., Senior Circuit Judge for the
Sixth Circuit Court of Appeals sitting by designation.

55a
Should the Commission accept the Court’s invitation, the brief by amicus curiae shall be filed on or
before Friday July 13, 2018.
By the Court,
s/ Theodore A. McKee
Circuit Judge
Date: June 12, 2018

56a
APPENDIX D
UNITED STATES
SECURITIES AND EXCHANGE COMMISSION
WASHINGTON, D.C. 20549
DIVISION OF
CORPORATION FINANCE
July 12, 2018
VIA UPS
Patricia S. Dodszuweit
Clerk of Court
United States Court of Appeals for the Third Circuit
21400 U.S. Courthouse
601 Market Street
Philadelphia, PA 19106-1790
Re: Informal SEC Staff Background to aid court on
Jaroslawicz v. M&T Bank Corporation, No. 17-3695
Ms. Dodszuweit:
I am the Chief Counsel of the Division of Corporation Finance at the U.S. Securities and Exchange
Commission. My division administers those sections of
the federal securities laws relating to securities offerings, proxy solicitations, mergers, and corporate disclosure. I write in response to the Court’s order dated
June 12, 2018, which invited the Commission to file a
brief as amicus curiae addressing three questions in
the captioned appeal. Because of internal processes for
seeking formal Commission approval to file an amicus
brief, the Commission is unable to file an amicus brief
by the July 13, 2018, deadline set forth in that order.
To assist the Court in its decision, however, I offer
background information regarding the legal obligations

57a
under the federal securities laws that triggered the
disclosure at issue in this case and the forms used to
satisfy those obligations, as well as background on the
Commission’s views on Item 503(c) of Regulation S-K.
I express no views on the particular legal questions
raised in the matter before the Court.1
Filing Obligations of M&T Bank
and Hudson City
In August 2012, M&T Bank Corporation announced
that it would acquire Hudson City Bancorp through a
merger in which cash and M&T Bank common stock
would be paid to Hudson City shareholders. M&T
Bank and Hudson City had several, separate filing
obligations under the federal securities laws.


Exchange Act Section 13(a). Both M&T
Bank and Hudson City had previously
registered securities under Section 12(b)
of the Securities Exchange Act of 1934
(“Exchange Act”) in order for the securities
to be eligible to trade on a registered securities exchange. As a result, both registrants were required to file periodic reports
under Section 13(a). One of those reports
is Form 10-K, which requires the registrant to disclose material risk information
pursuant to Item 503(c) of Regulation
S-K.2

1

As a matter of policy, the Securities and Exchange Commission disclaims responsibility for any statement of any SEC employee. This letter expresses my views and does not necessarily
reflect those of the Commission, the commissioners or other members of the staff.
2

See Form 10-K, Part 1, Item 1A.



58a
Securities Act. As the acquirer offering
securities to the target shareholders, M&T
Bank was subject to Section 5 of the Securities Act of 1933 (“Securities Act”), which
requires all offers to be registered unless
an exemption is available. Lacking an
available exemption, M&T Bank filed a
Securities Act registration statement, with
a prospectus, for its offer of its common
stock to Hudson City shareholders as
merger consideration.
Exchange Act Section 14(a) and Regulation 14A. As companies with Section 12(b)
registered securities, both M&T Bank and
Hudson City had obligations to file proxy
statements for their respective proposals
pursuant to the federal proxy rules in
Exchange Act Section 14(a) and Regulation 14A:3
o NYSE rules required M&T Bank, a
NYSE-listed issuer, to obtain approval
from its own shareholders for the
issuance of its common stock as merger consideration because the issuance
would represent more than 20% of its
shares outstanding before the merger;4
and

3
4

17 C.F.R. 240.14a-1 et seq.

NYSE Rule 312.03. In addition, M&T Bank needed shareholder approval to amend the terms of several outstanding
classes of preferred stock, which required amendments to its
certificate of incorporation.

o

59a
Delaware law required Hudson City,
a Delaware corporation, to seek shareholder approval of the merger.5

Under the federal proxy rules, any person who solicits
proxies from shareholders of securities registered
under Exchange Act Section 12(b) must first furnish
those shareholders with a proxy statement containing
the information required by Schedule 14A (unless an
exemption is available). Schedule 14A does not call
for disclosure under Item 503(c) of Regulation S-K.
The Joint Prospectus/Proxy Statement
Rather than filing separate Securities Act registration statement and proxy statements to comply with
these filing obligations, M&T Bank filed a single Form
S-4 that served as its Securities Act registration
statement as well as proxy statements for both M&T
Bank and Hudson City.6 The ability to file this
joint prospectus/proxy statement is based on General
Instruction E.1 of Form S-4. This instruction provides
that if a company submits a proposal to its security
holders entitled to vote on the transaction in which the
registered securities are to be issued and the solicitation is subject to Regulation 14A, then:


the prospectus may be in the form of
a proxy statement and may contain the

5

DGCL Section 251. In addition, federal proxy rules required
Hudson City to submit a non-binding advisory vote proposal to
its shareholders on the “golden parachute” compensation payable
to Hudson City executive officers upon completion of the merger.
6

Form S-4 is a Securities Act registration statement that may
be used to register securities to be issued in several types of transactions, including a Securities Act Rule 145 transaction involving
a merger. See General Instruction A.1 of Form S-4, available at
https://www.sec.gov/files/forms-4.pdf.

60a
information required by the Form S-4 in
lieu of that required by Schedule 14A (e.g.,
risk factor disclosures required by Item 3
of Form S-4); and


the proxy statement filed as a part of the
Form S-4 is deemed to satisfy the filing
obligation of Regulation 14A.7

M&T Bank’s use of Instruction E.1 to file a joint
prospectus/proxy statement for its merger is consistent with prevailing market practice.8 Although
acquirers and targets continue to have the option of
filing separate Securities Act registration statements
and proxy statements to satisfy their respective obligations,9 practitioners generally file a joint prospectus/
proxy statement to avoid duplicative filings and
reduce costs.
Item 3 of Form S-4 calls for “the information
required by Item 503 of Regulation S-K” and other
7

See Release 33-6578 (April 23, 1985) (“The Form S-4 prospectus may serve as the proxy or information statement used in
connection with the transaction. It would be deemed to meet the
informational and filing requirements of the proxy or information
statement rules under section 14 of the Exchange Act and
Regulations 14A and 14C thereunder, where applicable to the
transaction.”).
8

See, e.g., Stephen I. Glover, Business Separation Transactions: Spin-Offs. Subsidiary IPOs and Tracking Stock (“The
acquirer and the target may agree that the target’s proxy materials should be combined with the acquirer’s prospectus and proxy
materials. In these circumstances, the parties file a joint proxy
statement/prospectus.”).
9

See Release 33-6578 (“. . . registrants may choose to use Form
S-1 and have the company being acquired prepare its own proxy
statement so that the company being acquired will assume liability for the information in its own proxy statement.”).

61a
specified matters. The joint prospectus/proxy statement includes offering-specific risk factors in response
to Item 3. The introductory language in the joint
prospectus/proxy statement directs Hudson City shareholders and M&T Bank shareholders to consider carefully these risks in deciding whether to vote in favor
of the respective proposals presented to them. These
offering-specific risks are divided into two sections:
“Risks Related to the Merger” and “Risks Related
to M&T.” In addition to the offering-specific risk
factor disclosure, M&T Bank and Hudson City elected
to incorporate by reference disclosure from their respective Forms 10-K and 10-Q into the joint proxy
statement/prospectus.10 These periodic reports contained non-offering specific risk factor disclosures
applicable to each respective company.
Lastly, although not required to do so, Hudson City
separately filed a definitive proxy statement with
the Commission on February 22, 2013. This proxy
statement was identical to the joint prospectus/proxy
statement filed by M&T Bank, including with respect
to risk factor disclosures and incorporation by reference. Practitioners sometimes make this additional
filing so that the target’s proxy statement could be
easily found in that company’s EDGAR filing feed
(otherwise, the Form S-4 containing the target’s proxy
statement would appear only in the acquirer’s EDGAR
filing feed because the acquirer, not the target, is the
registrant for that Form S-4).
Summary of Commission Guidance on
Item 503(c) of Regulation S-K
Item 503(c) of Regulation S-K requires “under
the caption ‘Risk Factors’ a discussion of the most
10

See Item 11 of Form S-4.

62a
significant factors that make the offering speculative
or risky. This discussion must be concise and organized logically. Do not present risks that could apply
to any issuer or any offering. Explain how the risk
affects the issuer or the securities being offered. Set
forth each risk factor under a subcaption that adequately describes the risk.”11
In adopting this requirement, the Commission explained: “In many instances the securities to be offered
are of a highly speculative nature. The speculative
nature may be due to such factors as an absence
of operating history of the registrant, an absence of
profitable operations in recent periods, the financial
position of the registrant or the nature of the business
in which the registrant is engaged or proposes to
engage. In such instances, and particularly where a
lengthy prospectus cannot be avoided, there should be
set forth immediately following the cover page of the
prospectus a carefully organized series of short, concise paragraphs summarizing the principal factors
which make the offering speculative with references to
other parts of the prospectus where complete information with respect to such factors is set forth.”12
Since the Commission first published guidance
on risk factor disclosure in 1964, it has reiterated
that this disclosure should be organized, concise, and
focused on the “most significant” or “principal” factors
that make a registrant’s securities speculative or
risky.13 Indeed, in reviewing the history and purpose
11

17 C.F.R. 229.503(c).

12

Release No. 33-4666, section 18 (Feb. 7, 1964).

13

See Release No. 33-4936, Section 6 (Dec. 9, 1968) (“Where
appropriate to a clear understanding by investors there should be
set forth immediately following the cover page of the prospectus

63a
of many of the Regulation S-K items in 2016, the
Commission characterized Item 503(c) as “direct[ing]
registrants to explain how each risk affects the registrant and discourag[ing] disclosure of risks that could
apply to any registrant.”14
Respectfully submitted,
/s/ David R. Fredrickson
David R. Fredrickson
Chief Counsel/Associate Director
Division of Corporation Finance
U.S. Securities and Exchange Commission

. . . a carefully organized series of short, concise paragraphs
summarizing the principal factors which make the offering one of
high risk or speculative.”); Release No. 33-6383, Section III.B.9
(Mar. 3, 1982) (“Registrants, where appropriate, shall set forth
on the page immediately following the cover page of the prospectus . . . a discussion of the principal factors that make the offering
speculative or one of high risk.”); Release No. 33-8591, Section
IV.A.l (July 19, 2005) (“The risk factor section is intended to
provide investors with a clear and concise summary of the
material risks to an investment in the issuer’s securities.”).
14

Release No. 33-10064 (Apr. 13, 2016). Section IV.C.1 (further observing that Commission guidance “has emphasized that
registrants should avoid ‘boiler plate’ risk factors, and that a
discussion of risk in purely generic terms does not indicate how a
risk may affect an investment in a particular registrant.”); see
also Release No. 33-7497, Section IV.C.2 (Jan. 28, 1998) (“If you
include a risk factors section in your prospectus, you must . . .
avoid ‘boilerplate’ risk factors. We believe a discussion of risk in
purely generic terms does not tell investors how the risk may
affect their investment in a specific company. You should place
any risk factor in context so investors can understand the specific
risk as it applies to your company and its operations.”).

64a
Cc (by email only):
Counsel for Plaintiffs-Appellants
Deborah R. Gross, dgross@kcr-law.com
Laurence D. Paskowitz, lpaskowitz@pasklaw.com
Counsel for Defendants-Appellees
Bradley R. Wilson, brwilson@wlrk.com
Kevin R. Shannon, kshannon@potteranderson.com
Tracy Richelle High, hight@sullcrom.com
Christen M. Martosella, martosellac@sullcrom.com

